<html>
<title> - A REVIEW OF THE FEDERAL AVIATION ADMINISTRATION'S RESEARCH AND DEVELOPMENT PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
           A REVIEW OF THE FEDERAL AVIATION ADMINISTRATION'S
                    RESEARCH AND DEVELOPMENT PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 16, 2011

                               __________

                            Serial No. 112-1

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
64-430                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8becfbe4cbe8fef8ffe3eee7fba5e8e4e6a5">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

               HON. STEVEN M. PALAZZO, Mississippi, Chair
F. JAMES SENSENBRENNER JR.,          GABRIELLE GIFFORDS, Arizona
    Wisconsin                        MARCIA L. FUDGE, Ohio
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
DANA ROHRABACHER, California         TERRI A. SEWELL, Alabama
FRANK D. LUCAS, Oklahoma             DAVID WU, Oregon
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             FREDERICA S. WILSON, Florida
SANDY ADAMS, Florida                     
E. SCOTT RIGELL, Virginia                
MO BROOKS, Alabama                       
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas
                ED FEDDEMAN Subcommittee Staff Director
            KEN MONROE Republican Professional Staff Member
                 BEN SCHELL Republican Staff Assistant
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member


                            C O N T E N T S

                           February 16, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chair, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    11

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
Statement by Representative Marcia L. Fudge, Acting Ranking 
  Minority Member, Subcommittee on Space and Aeronautics, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    14

                               Witnesses:

Ms. Victoria Cox, Senior Vice President, NextGen and Operations 
  Planning, Air Traffic Organization, Federal Aviation 
  Administration
    Oral Statement...............................................    15
    Written Statement............................................    16

Hon. Calvin Scovel III, Inspector General, U.S. Department of 
  Transportation
    Oral Statement...............................................    21
    Written Statement............................................    23

Dr. R. John Hansman, Chair, FAA Research, Engineering, and 
  Development Advisory Committee, Professor of Aeronautics and 
  Astronautics, Director, MIT International Center for Aviation
    Oral Statement...............................................    30
    Written Statement............................................    32

Mr. Peter Bunce, President and CEO, the General Aviation 
  Manufacturers Association
    Oral Statement...............................................    35
    Written Statement............................................    36

              Appendix: Answers to Post-Hearing Questions

Ms. Victoria Cox, Senior Vice President, NextGen and Operations 
  Planning, Air Traffic Organization, Federal Aviation 
  Administration.................................................    56

Hon. Calvin Scovel III, Inspector General, U.S. Department of 
  Transportation.................................................    61

Dr. R. John Hansman, Chair, FAA Research, Engineering, and 
  Development Advisory Committee, Professor of Aeronautics and 
  Astronautics, Director, MIT International Center for Aviation..    63

Mr. Peter Bunce, President and CEO, the General Aviation 
  Manufacturers Association......................................    65


    A REVIEW OF THE FEDERAL AVIATION ADMINISTRATION'S RESEARCH AND 
                          DEVELOPMENT PROGRAM

                              ----------                              


                      WEDNESDAY, FEBRUARY 16, 2011

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                     U.S. HOUSE OF REPRESENTATIVES

           A Review of the Federal Aviation Administration's

                    Research and Development Program

                      wednesday, february 16, 2011
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    The purpose of the February 16 Subcommittee on Space and 
Aeronautics hearing is to review the Federal Aviation Administration's 
(FAA) portfolio of research and development programs, and examine 
priorities and challenges.

Witnesses

Ms. Victoria Cox, Senior Vice President, NextGen and Operations 
Planning, Air Traffic Organization, Federal Aviation Administration

The Hon. Calvin Scovel, III, Inspector General, U.S. Department of 
Transportation

Dr. R. John Hansman, Chair, FAA Research, Engineering and Development 
Advisory Committee; Professor of Aeronautics and Astronautics; 
Director, MIT International Center for Aviation

Mr. Peter Bunce, President and CEO, the General Aviation Manufacturers 
Association (GAMA)

Background

Overview
    Aviation is a vital national resource for the United States. It 
supports commerce, economic development, law enforcement, emergency 
response, and personal travel and leisure. It attracts investment to 
local communities and opens up new domestic and international markets 
and supply chains. During calendar year 2009, the FAA estimates that 
our nation's commercial aviation industry accounted for 5.6% of U.S. 
Gross Domestic Product ($1.3 trillion in economic activity). 
Additionally, aerospace products represent the fastest growing source 
for technological exports.
    Research and Development is an essential component of FAA's ability 
to provide solutions to emerging industry challenges and create new 
capabilities. The FAA's R&D mission is to ``Conduct, coordinate and 
support domestic and international R&D of aviation-related products and 
services that will ensure a safe, efficient and environmentally sound 
global air transportation system.''
    Our nation's civil aviation research and development is carried out 
both by FAA and NASA. Their efforts are complementary, not duplicative. 
FAA R&D focuses on near-term strategic needs enabling the agency to 
address industry challenges primarily related to aviation safety, 
environmental compliance, and implementation of the Next Generation Air 
Transportation Management Systems (NextGen). NASA's R&D efforts are 
more long-term, pursuing high-risk, high-reward technologies in the 
areas of aviation safety, airspace systems, and fundamental 
aeronautics.
    Broadly speaking, FAA's research portfolio has two major thrusts--
(1) safety and capacity R&D projects needed to support day-to-day 
operations of the national airspace system, and (2) technologies needed 
to enable and implement the Next Generation Air Transportation System 
(``NextGen'').
    Examples of research programs include:

        <bullet>  Advanced Materials/Structural Safety R&D. Develops 
        analytical and testing methods to understand how design, load, 
        and damage can affect composite structures and by developing 
        maintenance and repair methods.

        <bullet>  Fire Research and Safety R&D. Develops technologies, 
        procedures, and test methods that can prevent accidents caused 
        by fires and fuel tank explosions and improve survivability 
        during a post-crash fire.

        <bullet>  Unmanned Aircraft Systems Research. Ensures safe 
        integration of unmanned aircraft systems (UAS) into the 
        nation's aviation system. It also provides certification 
        procedures, operational requirements, and safety oversight 
        activities for UAS civil applications and operations.

        <bullet>  NextGen--Alternative Fuels for General Aviation R&D. 
        Current GA piston aircraft rely exclusively on leaded gasoline. 
        This program researches the use of alternative and renewable 
        fuels for GA to lessen aviation environmental impacts by 
        developing data and methodologies to support their 
        certification.

        <bullet>  Air Traffic Control/Technical Operations Human 
        Factors R&D. Identifies and analyzes trends in air traffic 
        operational errors and technical operations incidents. It also 
        manages human error hazards, their consequences, and recovery 
        methods in early stages of system design or procedural 
        development and technology to modernize workstations and 
        improve controller performance.

    For a complete listing of FAA's R&D activities and their associated 
funding levels, see attachment.

NextGen and the Joint Planning and Development Office (JPDO)
    NextGen is the agency's high priority program to modernize our 
nation's air traffic control system. Its goals are to triple the 
capacity of our national airspace system by 2025 (using 2004 as the 
baseline), to make the system safer and more secure, and to mitigate 
aviation's impact on the environment. NextGen is an ambitious, long-
term and expensive undertaking, and will require sustained investments 
by government agencies responsible for managing and protecting our 
airspace system and infrastructure. It will also require large 
investments by air carriers to equip their fleets with the technologies 
that will enable them to fully exploit NextGen's capabilities.
    The FAA's Joint Planning and Development Office (JPDO) was created 
to coordinate interagency planning for those federal stakeholders 
participating in NextGen, including the Department of Transportation, 
Department of Defense, Department of Homeland Security, Department of 
Commerce, NASA, the White House Office of Science and Technology 
Policy, and the FAA. The JPDO also works with industry and academia.

Research and Development Goals
    FAA has established ten high-level goals for its full suite of R&D 
activities. They are:

        1.  Fast, Flexible, Efficient. A system that safely and quickly 
        moves anyone and anything, anywhere, anytime on schedules that 
        meet customers' needs;

        2.  Clean and Quiet. A reduction of significant aerospace 
        environmental impacts in absolute terms.

        3.  High Quality Teams and Individuals. The best qualified and 
        trained workforce in the world.

        4.  Human-Centered Design. Aerospace systems that adapt to, 
        compensate for, and augment the performance of the human.

        5.  Human Protection. A reduction in fatalities, injuries, and 
        adverse health impacts due to aerospace operations.

        6.  Safe Aerospace Vehicles. A reduction in accidents and 
        incidents due to aerospace vehicle design, structure and 
        subsystems.

        7.  Separation Assurance. A reduction in accidents and 
        incidents due to aerospace vehicle operations in the air and on 
        the ground.

        8.  Situational Awareness. Common, accurate and real-time 
        information on aerospace operations, events, crises, obstacles, 
        and weather.

        9.  System Knowledge. A thorough understanding of how the 
        aerospace system operates, the impact of change on system 
        performance and risk, and how the system impacts the nation.

        10.  World Leadership. Globally recognized leader in aerospace 
        technology, systems, and operations.

    The William J. Hughes Technical Center, located at the Atlantic 
City, NJ airport, is the FAA's principal research facility. It houses a 
number of laboratories, cockpit simulators, and systems integration 
facilities that support research in the fields of capacity and air 
traffic management; communications, navigation and surveillance; 
NextGen concept validation; weather; airport technology; aircraft 
safety; information security; and environment and energy.
    Through a contractual relationship with the Mitre Corporation, the 
FAA also funds the Center for Advanced Aviation Systems Development 
(CAASD), a Federally Funded Research and Development Center located in 
McLean, VA. CAASD performs air traffic management research.

FAA's Research Budget
    FAA funds R&D from each of the agency's four budget accounts. The 
Research, Engineering and Development Account is fully dedicated to 
R&D; the other accounts (ATO Capital Account; Airport Improvement 
Program; and Operations) have portfolios of which R&D is but a 
fraction. For Fiscal Year 2010 enacted, FAA R&D programs were funded at 
$346.3 million.
    With the exception of Operations, FAA's accounts are fully funded 
by the Aviation Trust Fund, which is capitalized through a series of 
taxes imposed on the flying public, the largest being a 7.5% tax 
assessed on the purchase of airline passenger tickets. The Operations 
account receives funding from both the Aviation Trust Fund and General 
Treasury revenues.

External Advisory Committee
    Research, Engineering, and Development Advisory Committee (REDAC). 
The REDAC advises the FAA Administrator on management of its R&D 
activities, their performance and content, and ensures FAA research 
activities are coordinated with other government agencies and industry. 
A long-time REDAC member and current committee chair, Dr. R. John 
Hansman, will appear as a witness.
    In a letter sent to the Administrator last fall, the REDAC made 
several observations. The following are excerpts:

        <bullet>  The REDAC is concerned that there does not appear to 
        be a clear high level Research and Development plan for NextGen 
        that articulates the critical NextGen needs and links them to 
        the R&D portfolio.

        <bullet>  As noted in prior recommendations the FAA has a 
        unique need for expertise in key areas such as critical 
        software and digital systems and human factors both for 
        certification and acquisition. The REDAC reiterates its concern 
        that there has been inadequate progress in developing the core 
        competency and technical workforce in this and other key areas.

        <bullet>  The REDAC applauds progress in defining a clearer 
        path forward toward certification and routine operation of UAS 
        in the National Airspace System (NAS). In light of the 
        significant community pressure on the FAA to accelerate the 
        safe integration of UAS in the NAS, the REDAC questions if the 
        research is sufficient to address the complexity of the 
        operational, technical and policy changes associated with safe 
        integration of UAS and whether the timeline could be 
        accelerated if additional resources were available.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chairman Palazzo. The Subcommittee on Space and Aeronautics 
will come to order. Good morning. Welcome to today's hearing 
entitled, ``A Review of the Federal Aviation Administration's 
Research and Development Programs''. In front of you are 
packets containing the written testimony, biographies, and 
Truth in Testimony disclosures for today's witness panel.
    Before we get started, this being the first meeting of the 
Space and Aeronautics Subcommittee for the 112th Congress, I 
would like to ask the subcommittee's indulgence to introduce 
myself, and welcome back returning Members. It seems to be a 
little empty because there are a lot of competing interests 
this morning for Members' time, but they will be coming and 
going. I would also like to introduce new Members on our side 
of the aisle. Afterwards, I will recognize Ms. Fudge to do the 
same.
    It is an honor and a privilege for me to chair the Space 
Subcommittee for this Congress, and it is a position I do not 
take lightly. I want all Members of the subcommittee to know 
that my door is always open, and that I will endeavor to serve 
all Members fairly and impartially. I will work to serve the 
best interests of Congress and all Americans, to ensure that 
the agencies and programs under our jurisdiction are worthy of 
the public support.
    In the last Congress this chair was held by Representative 
Gabrielle Giffords, an extraordinary lady and leader who is a 
fierce advocate of our nation's space program. I ask all in 
this room to keep Representative Giffords in their thoughts and 
prayers, as she continues to recover from her wounds.
    Since there is not really anyone to welcome back on this 
side, we will skip this part, and I would like to go ahead and 
let Ms. Fudge introduce her Members.
    Ms. Fudge. Okay.
    Chairman Palazzo. At this time I recognize myself for five 
minutes for an opening statement.
    Good morning. I would like to welcome everyone to today's 
hearing. We have a distinguished panel of witnesses before us 
who will discuss the Federal Aviation Administration's Research 
and Development Program, and at the outset I wish to extend a 
sincere thank you to each of our witnesses for taking the time 
and effort to appear before us today. Please know that your 
testimony and wisdom will be of immense help to the Members of 
this Committee.
    Our National Air Transportation System plays a critical 
role in every American's daily life, enabling aviation services 
to conveniently reach into virtually every corner of our 
nation. For cities and towns, large and small, aviation has 
become essential to sustaining commerce, public safety, and 
leisure. It is a capability that has enabled our society to 
flourish in many ways, and while economists have often spoken 
about the incalculable benefits that were enabled by the 
development of the interstate highway system, there is no doubt 
that aviation has had a comparable effect, stitching together 
virtually all regions and communities of our nation. Without a 
robust commercial air transportation system, many forms of 
commerce and intercity travel would be significantly 
diminished.
    With that in mind, the Federal Aviation Administration's 
role of safely managing and regulating our national airspace 
system and its users is an enormous enterprise. Demand on the 
NAS has in recent past strained FAA's ability to efficiently 
manage the system, in part due to the limitation of the current 
radar-based system. We cannot afford to continue in this way. 
It simply can't absorb additional traffic that will surely come 
once our economy rebounds.
    Just yesterday the FAA released its annual forecast, 
predicting that air travel will double over the next two 
decades. FAA also predicts that the system will move one 
billion passengers annually by the year 2021, just ten years 
from now.
    In the safety arena, FAA is confronting a wide spectrum of 
challenges such as developing the knowledge to ensure safe 
operations of aging aircraft, understanding the performance and 
failure modes of new materials used in aircraft structures, new 
automation systems, understanding man/machine interfaces, and 
human factors, and researching and certifying new fuels for 
piston and turbine power plants, just to name a few examples.
    It is critical that FAA meet these challenges and to do so 
it must have a robust and well-managed research and development 
program that enables the agency to accommodate growth and 
accommodate new technologies.
    This morning's hearing will give us an opportunity to hear 
from industry experts and senior agency officials to help us 
understand the successes and obstacles FAA must confront as it 
continues to advance our nation's air transportation system. It 
is critically important that FAA and its industry partners 
provide good rationale for agency-supported research projects 
and activities and to justify the level of funding. These are 
uncertain times. Congress is facing enormous pressure to reduce 
the size of our budget deficit, and every federal activity will 
come under intense scrutiny, no matter how meritorious you and 
I might think they may be.
    Thanks again to our witnesses.
    With that I now recognize the gentlelady from Ohio, Ms. 
Fudge, for her opening statement.
    [The prepared statement of Chairman Palazzo follows:]

            Prepared Statement of Chairman Steven M. Palazzo

    Good morning. I'd like to welcome everyone to today's hearing. We 
have a distinguished panel of witnesses before us who will discuss the 
Federal Aviation Administration's research and development program. And 
at the outset I wish to extend a sincere thank you to each of our 
witnesses for taking the time and effort to appear before us today. 
Please know that your testimony and wisdom will be of immense help to 
the Members of this Committee.
    Our national air transportation system plays a critical role in 
every American's daily life, enabling aviation services to conveniently 
reach into virtually every corner of our nation. For cities and towns 
large and small, aviation has become essential to sustaining commerce, 
public safety, and leisure. It is a capability that has enabled our 
society to flourish in many ways and while economists have often spoken 
about the incalculable benefits that were enabled by the development of 
the interstate highway system, there is no doubt that aviation has had 
a comparable effect, stitching together virtually all regions and 
communities of our nation. Without a robust commercial air 
transportation system, many forms of commerce and intercity travel 
would be significantly diminished.
    With that in mind, the Federal Aviation Administration's role of 
safely managing and regulating our national airspace system and its 
users is an enormous enterprise. Demand on the NAS has in the recent 
past strained FAA's ability to efficiently manage the system, in part 
due to limitations of the current radar-based system. We cannot afford 
to continue in this way; it simply can't absorb additional traffic that 
will surely come once our economy rebounds. Just yesterday the FAA 
released its annual forecast, predicting that air travel will double 
over the next two decades. FAA also predicts that the system will move 
one billion passengers annually by the year 2021, just ten years from 
now.
    In the safety arena, FAA is confronting a wide spectrum of 
challenges such as developing the knowledge to ensure safe operations 
of aging aircraft, understanding the performance and failure modes of 
new materials used in aircraft structures, new automation systems, 
understanding man/machine interfaces and human factors, and researching 
and certifying new fuels for piston and turbine powerplants, just to 
name a few examples.
    It is critical that FAA meet these challenges, and to do so, it 
must have a robust and well-managed research and development program 
that enables the agency to accommodate growth, and accommodate new 
technologies. This morning's hearing will give us an opportunity to 
hear from industry experts and senior agency officials to help us 
understand the successes and obstacles FAA must confront as it 
continues to advance our nation's air transportation system.
    It is critically important that FAA and its industry partners 
provide good rationale for agency-supported research projects and 
activities, and to justify the level of funding. These are uncertain 
times. Congress is facing enormous pressure to reduce the size of our 
budget deficit, and every federal activity will come under intense 
scrutiny, no matter how meritorious you and I might think they might 
be.
    Thanks again to our witnesses. With that, I now recognize the 
gentleman from Illinois, Mr. Costello, for his opening statement.

    Ms. Fudge. Thank you very much, Mr. Chairman, and I want to 
thank the staff. As you know, I am sitting in for someone who 
is standing in. Mr. Costello is actually the acting Ranking 
Member, and I am standing in for him today because he is at 
another hearing, and we are both just doing all we can to hold 
down the fort until our friend Gabby Giffords returns to assume 
this position as Ranking Member of the subcommittee. So I thank 
you.
    Mr. Chairman, thank you for holding this hearing today to 
review the Federal Aviation Administration's Research and 
Development program. Mr. Costello has asked me to sit in the 
Ranking Member's chair as the Transportation and Infrastructure 
Committee is marking up the FAA bill as we speak. I ask that 
his prepared remarks be inserted for the record.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
        <bullet>  Mr. Chairman, thank you for holding today's hearing 
        to review the Federal Aviation Administration's (FAA's) 
        research and development programs.

        <bullet>  I look forward to working with you and continuing the 
        cooperative, bipartisan spirit of this Subcommittee.

        <bullet>  I would like to start by saying a few words about 
        Congresswoman Giffords, my good friend and a true champion of 
        our nation's space program.

        <bullet>  Following Congresswoman Giffords' election as Ranking 
        Member of this Subcommittee, I was asked by the leadership of 
        the Science, Space, and Technology Subcommittee to serve in her 
        absence as she recovers.

        <bullet>  I am encouraged by her ongoing progress, including 
        the announcement this week that she was speaking and 
        communicating with her doctors and family. My thoughts and 
        prayers are with her, her husband Mark, and their family as she 
        recovers. I look forward to her return, and I am honored to 
        serve as Acting Ranking Member during her recovery.

        <bullet>  When I chaired the Aviation Subcommittee, the House 
        and Senate came very close to delivering a strong, balanced and 
        bipartisan FAA reauthorization bill in the last Congress. Today 
        in the Transportation and Infrastructure Full Committee, we are 
        marking up our FAA titles. The legislation under discussion is 
        a four-year bill that includes several provisions with which I 
        agree but also contains many controversial provisions. We 
        intend to offer amendments to improve the legislation, and I am 
        hopeful we can do so before the measure comes to the floor.

        <bullet>  In the last Congress, I included language in the 
        Federal Aviation Research and Development Title to the FAA 
        Reauthorization to establish a Center of Excellence in Aviation 
        Employment, which would focus on research and training across 
        the civil aviation industry. It is imperative that as we 
        continue to improve the civil aviation industry, we ensure we 
        have the most skilled and competitive workforce possible.

        <bullet>  In addition, we are moving forward with implementing 
        NextGen, which is essential to moving from a radar system to a 
        satellite-based system. I strongly support continued funding of 
        NextGen's R&D program over which this committee has 
        jurisdiction. I believe we must continue to fund these efforts 
        and move forward with its implementation.

        <bullet>  In addition, we must continue to invest in the 
        development of lower-emission and unleaded aviation fuels 
        through the Avgas program. I will work with you, Chairman 
        Palazzo, to ensure our title of the FAA bill directs the agency 
        to work in cooperation with NASA, industry representatives, 
        manufacturers, fuel producers, and other stakeholders to 
        develop a roadmap for achieving emission reduction goals.

        <bullet>  Finally, I recognize the importance of reducing our 
        federal spending and addressing our deficit. However, we should 
        not make cuts that compromise the safety and security of the 
        flying public and the competitiveness of the aviation and 
        aerospace industry.

        <bullet>  I thank our witnesses for being here to testify 
        today, and I look forward to working with all interested 
        parties to develop a strong, fiscally-responsible, and forward-
        looking FAA bill.

    Chairman Palazzo. Without objection.
    Ms. Fudge. Thank you. I would like to welcome the new 
Members who are not here, but I will tell you who they are. The 
gentlewoman from Alabama, Ms. Sewell, and the gentlewoman from 
Florida, Ms. Wilson. We look forward to their participation on 
this subcommittee.
    Aviation is a vital part of the U.S. economy, making up as 
much as nine percent of America's GDP and representing the 
fastest-growing source for technological exports. R&D is an 
important component, and FAA's contribution is vital. In 
particular, FAA's implementation of NextGen is essential to 
moving from a radar system to a satellite-based system.
    The Science, Space, and Technology Committee has 
jurisdiction over the research and development for NextGen, and 
I am hopeful we can provide adequate funding for this vital 
program. Some Members of Congress have suggested we reduce or 
eliminate funding for NextGen and other FAA R&D programs. I am 
convinced cutting these programs now would present major 
concerns for aviation safety in the coming years and push our 
aviation industry backwards instead of moving us forward.
    Further cutting funding now would actually eliminate future 
opportunities for FAA to save billions of dollars through the 
agency's facility consolidation efforts, reductions in fuel 
consumption, and decreases in engine emissions.
    I recognize the need to reduce federal spending and address 
our deficit. However, I believe we cannot jeopardize the safety 
and security of the flying public or the future of the American 
economy in the process. I will work with you, Chairman Palazzo, 
to ensure our Title of the FAA bill reflects our interests.
    I thank our witnesses for being here to testify today, and 
I look forward to working with all interested parties in 
developing a strong, fiscally-responsible, and forward-looking 
FAA bill.
    I yield back, Mr. Chairman.
    [The prepared statement of Ms. Fudge follows:]

          Prepared Statement of Representative Marcia L. Fudge

    I would like to welcome the new Democratic members of the 
subcommittee. The gentlewoman from Alabama, Ms. Terri Sewell, and the 
gentlewoman from Florida, Ms. Frederica Wilson. We look forward to your 
participation on this subcommittee.
    Aviation is a vital part of the U.S. economy, making up as much as 
9 percent of America's GDP and representing the fastest-growing source 
for technological exports. R&D is an important component, and FAA's 
contribution is vital. In particular, FAA's implementation of the Next 
Generation air transportation system, also known as NextGen, is 
essential to moving from a radar system to a satellite-based system.
    The Science, Space, and Technology Committee has jurisdiction over 
the research and development for NextGen, and I am hopeful we can 
provide adequate funding for this vital program. Some members of 
Congress have suggested we reduce or eliminate funding for NextGen and 
other FAA R&D programs. I am convinced cutting these programs now would 
present major concerns for aviation safety in the coming years and push 
our aviation industry backwards instead of moving us forward.
    Further cutting funding now would actually eliminate future 
opportunities for FAA to save billions of dollars through the agency's 
facility consolidation efforts, reductions in fuel consumption, and 
decreases in engine emissions.
    I recognize the need to reduce federal spending and address our 
deficit. However, I believe we cannot jeopardize the safety and 
security of the flying public or the future of the American economy in 
the process. I will work with you, Chairman Palazzo, to ensure our 
Title of the FAA bill reflects our interests.
    I thank our witnesses for being here to testify today, and I look 
forward to working with all interested parties in developing a strong, 
fiscally-responsible, and forward-looking FAA bill.

    Chairman Palazzo. Thank you, Ms. Fudge. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    I would like to mention that our Chairman, Mr. Hall, is 
here. Thank you for coming. Do you have anything you would like 
to say?
    Mr. Rohrabacher is here. He is a returning Member.
    At this time I would like to introduce our panel of 
witnesses. We will proceed to hear from each of them in order. 
Our first witness is Ms. Victoria Cox. She is Senior Vice 
President of NextGen Operations Planning in the Air Traffic 
Organization, and with the Federal Aviation Administration. 
Next we will hear from the Hon. Calvin Scovel, Inspector 
General of the U.S. Department of Transportation. Following Mr. 
Scovel we will hear from Dr. John Hansman, Chairman of the 
Research, Engineering, and Development Committee of the Federal 
Aviation Administration, and a Professor of Aeronautics and 
Astronautics at the Massachusetts Institute of Technology. Our 
final witness will be Mr. Peter Bunce, President and CEO of the 
General Aviation Manufacturers Association. Thanks, again, to 
our panel for being here this morning.
    Mr. Rohrabacher. Mr. Chairman, I would like to ask for a 
motion for personal privilege here. I would like to have the 
opportunity to ask one question before the testimony begins 
that could be followed up on after the testimony.
    Chairman Palazzo. Hearing no objections? All right. You are 
granted.
    Mr. Rohrabacher. I would like the witnesses to be thinking 
about this question. They could give it some thought, and give 
us a serious answer. I would like you to tell me what you 
believe the number one priority the FAA and that we should have 
in this arena. What is the number one priority, and also, most 
important, tell us what the lowest priority should be. So when 
we have to balance budgets, we will have some direction from 
you. I needed to ask that before to give them time to think 
about it.
    So thank you very much for granting me that one minute.
    Chairman Palazzo. As our witnesses should know, spoken 
testimony is limited to five minutes each. After all witnesses 
have spoken, Members of the Committee will have five minutes 
each to ask questions.
    I now recognize our first witness, Ms. Victoria Cox, Senior 
Vice President, Federal Aviation Administration.

 STATEMENT OF MS. VICTORIA COX, SENIOR VICE PRESIDENT, NEXTGEN 
  AND OPERATIONS PLANNING, AIR TRAFFIC ORGANIZATION, FEDERAL 
                    AVIATION ADMINISTRATION

    Ms. Cox. Thank you. Good morning, Committee Chairman Hall, 
Subcommittee Chairman Palazzo, Congresswoman Fudge, and Members 
of the Subcommittee.
    Chairman Palazzo. Please pull the microphone closer. Thank 
you.
    Ms. Cox. I am Victoria Cox, Senior Vice President for 
NextGen and Operations Planning Services in the Air Traffic 
Organization of the Federal Aviation Administration. It is a 
pleasure to meet the new Members of the Subcommittee today, and 
I look forward to working with all of you. It saddens me that 
Congresswoman Giffords is not here, having appeared before her 
last year. We at the FAA join the rest of the Nation in keeping 
her recovery in our thoughts.
    Research and development has been essential and necessary 
to aviation, since its very beginning. Where would we be 
without the Wright Brothers' studies and experiments on the 
dynamics of flight? The FAA's Research, Engineering, and 
Development, or RE&D Programs, carry this legacy forward as 
aviation continues to thrive and change.
    Aviation is a vital national resource for the United 
States. The aviation industry alone directly employs 1.1 
million people, and the industry supports more than 11 million 
jobs in related industries through spending by direct aviation 
employees. Altogether, this direct support represents six 
percent of the gross domestic product of the United States.
    In addition to the support it provides for commerce, jobs, 
and economic development, we cannot forget aviation's integral 
role in law enforcement, emergency response, national defense, 
and security of the homeland. These benefits of the aviation 
industry require that America's air transportation system 
remain the best in the world.
    But being the best has a price. To maintain leadership 
requires constant introduction of new technologies and 
procedures, innovative policies, and advanced management 
practices into the aviation system. In order to do that, we 
need to make sustained investments in advanced research and 
technology development. A robust RE&D Program allows for cost-
effective implementation of vital new technologies and 
capabilities through concept development, testing, early risk 
identification, and mitigation.
    There is often an incomplete understanding of what the Next 
Generation Air Transportation System, or NextGen, is and what 
it can do. The concept is simple. NextGen is a set of 
technologies, processes, procedures, and policies that together 
will revolutionize how people fly. It is a radical departure 
from the ground-based radar of years gone by, and a shift 
towards satellite control and navigation. It is a game changer 
for the controller, the pilot, and the passenger.
    With the technology and procedures of NextGen, we will 
vastly improve the safety, efficiency, and overall performance 
of air transportation. However, we are well aware that this is 
not the whole story. If we want to get maximum return on the 
investment. If we want to support unconstrained market growth 
in aviation, we must take an aggressive approach to upgrading 
our infrastructure to maximize the benefits of NextGen.
    At some point, keeping legacy systems going becomes more 
costly than replacing them with new technology. To that end, we 
have developed a research portfolio that will address today's 
needs while laying the foundation to address the needs of the 
future of NextGen. The FAA's research and development is geared 
to practical applicability. While we are developing NextGen 
with an eye towards long-term transformation of the air traffic 
control system, we are also evolving the system in the near to 
mid-term as well.
    FAA's research portfolio is divided into related fields. 
Our core NextGen RE&D funding includes research that supports 
aviation, safety, and regulatory processes. Other research and 
development activities are aimed at introducing innovative new 
technologies into the air transportation system that will 
deliver future operational capabilities envisioned for NextGen.
    My written statement provides examples of our ongoing 
efforts, and their importance to our overall success. I would 
be remiss if I did not point out that we are not alone in our 
efforts. We are committing to working smartly and more leanly, 
and to that end we are partnering with others to leverage their 
knowledge and resources to augment ours. We engage with 
industry via advisory boards and with a multitude of 
international organizations.
    The Joint Planning and Development Office, or JPDO, 
facilitates partnerships across government agencies including: 
FAA, NASA, and the Departments of Defense, Commerce, and 
Homeland Security. The JPDO supports a future vision for 
NextGen by developing the long-term research plan for 
improvements that extend beyond the mid-term planning window of 
the FAA.
    Our approach to research and development is focused on 
maintaining our leadership in aviation, while leveraging our 
partnerships to the maximum extent possible. I believe this 
approach is bearing fruit. As the aviation industry continues 
to evolve and change, it is vitally important that our country 
leads the world in this sector.
    I look forward to working with this Congress to ensure that 
we do. This concludes my prepared remarks. Thank you again. I 
will be happy to answer questions.
    [The prepared statement of Ms. Cox follows:]

                   Prepared Statement of Victoria Cox

    Good morning, Chairman Palazzo, Congressman Costello, and Members 
of the Subcommittee. I am Victoria Cox, Senior Vice President for 
NextGen and Operations Planning Services in the Air Traffic 
Organization of the Federal Aviation Administration (FAA). It is a 
pleasure to meet the new Members of the Subcommittee today and I look 
forward to working with all of you. It saddens me to miss Congresswoman 
Giffords here, having appeared before her last year, and we at the FAA 
join the rest of the nation in keeping her recovery in our thoughts.
    Research and development has been essential and necessary to 
aviation since the beginning. Where would we be without the Wright 
Brothers' studies and experiments on the dynamics of flight? The FAA's 
research, engineering and development (RE&D) program carry this legacy 
forward as aviation continues to thrive and change.
    Aviation is a vital national resource for the United States. The 
aviation industry alone directly employs 1.1 million people and 
supports more than 11 million jobs in related industries and through 
spending by direct aviation employees. Altogether, this represents 6% 
of the Gross Domestic Product (GDP). In addition to the support it 
provides for commerce, jobs, and economic development, we cannot forget 
aviation's integral role in law enforcement, emergency response, and in 
the national defense and security of the homeland. These benefits of 
the aviation industry require that America's air transportation system 
remains the best in the world.
    But being the best has a price. To maintain leadership requires 
constant introduction of new technologies and procedures, innovative 
policies, and advanced management practices into the aviation system. 
In order to do that, we need to make sustained investments in advanced 
research and technology development. A robust RE&D program allows for 
cost-effective implementation of viable new technologies and 
capabilities through concept development, testing, early risk 
identification and mitigation.
    There's an incomplete understanding of what the Next Generation Air 
Transportation System (NextGen) is and what it can do. The concept is 
simple: NextGen is a set of technologies, processes, procedures and 
policy that together will revolutionize how people fly. It is a radical 
departure from the ground-based radar of years gone by, a shift toward 
satellite control and navigation. It is a game changer for the 
controller, the pilot, and the passenger. With the technology and 
procedures of NextGen, we can help turn that around. But we are well 
aware that is not the whole story. If we want to get maximum return on 
the investment, if we want to support unconstrained market growth in 
aviation, we must take an aggressive approach to upgrading our 
infrastructure to maximize the benefits of NextGen. At some point, 
keeping the legacy systems going becomes more costly than replacing 
them with new technologies.
    To that end, we have developed a research portfolio that will 
address today's needs while laying the foundation to address the needs 
of the future for NextGen. The FAA's research and development is geared 
to practical applicability. While we are developing NextGen with an eye 
towards the long-term transformation of the air traffic control system, 
we are evolving the system in the near-to mid-term as well, as my 
testimony will highlight later. FAA efforts focus on the period between 
now and 2018.
    FAA's research portfolio is divided into related fields. Our core 
and NextGen RE&D funding includes research that supports aviation 
safety and regulatory processes. Other research and development 
activities are aimed at introducing innovative new technologies into 
the air transportation system that will deliver future operational 
improvements envisioned for NextGen.
    Our Advanced Technology Development and Prototyping (ATD&P) work is 
funded in the Facilities and Equipment (F&E) appropriation. It further 
develops products resulting from FAA RE&D investments as well as 
research transitioned from the National Aeronautics and Space 
Administration (NASA) and other sources of basic and fundamental 
research. ATD&P activities include development of detailed mid-term 
operational concepts, concept validation studies, human factors 
analyses and requirements for individual systems based on those 
concepts, and validation prototypes and demonstrations.
    NextGen System Development is funded in the F&E appropriation and 
supports the transition from RE&D to advanced technology development 
through activities such as concept modeling, system level requirements 
development, assessments of human performance and integration with 
technologies, and development of environmental management 
methodologies.
    Research and development performed by MITRE's Center for Advanced 
Aviation System Development (CAASD) directly supports needs of FAA 
research and development programs that can uniquely be provided by this 
Federally Funded Research and Development Center (FFRDC).
    Finally, research and development is also funded by the Airport 
Improvement Program (AIP). There are two components: first the Airport 
Technology Research Program addresses the research and development 
needs of the Office of Airports in the areas of airport pavement, 
rescue and firefighting, wildlife hazard mitigation, runway surface 
technology, and visual guidance. The results of this research are used 
to update guidance material, manuals, and technical specifications that 
airports rely on when expending AIP funds. Second, the Airport 
Cooperative Research Program (ACRP) is funded by the Airport 
Improvement Program (AIP). ACRP is an industry-driven, applied research 
program that develops near-term, practical solutions to problems faced 
by airport operators. The FAA sponsors ACRP, and the Transportation 
Research Board (TRB) of the National Academies manages the program. 
Contractors who are selected on the basis of competitive proposals 
conduct the research.
    FAA takes seriously the need to continue to improve environmental 
performance in order to sustain aviation growth. The FAA and aviation 
industry agree that environmental impacts will constrain NextGen if 
they are not effectively managed and mitigated. Technological advances 
in engine, airframe, and fuels technologies offer the greatest 
improvements and will keep the U.S. globally competitive. We have 
partnered with industry in our Continuous Lower Energy, Emissions and 
Noise (CLEEN) technology program to develop new technologies to reduce 
aircraft noise, emissions, and fuel burn, and to advance sustainable 
alternative aviation fuels.
    Engine and airframe technologies will offer the greatest long term 
benefit but these new technologies must be coupled with efficient 
procedures, particularly in the near term. Thus, we are implementing 
new Optimized Profile Descents (OPDs) at nine locations including Los 
Angeles, Atlanta, Phoenix, San Diego, Honolulu and Anchorage. In 
addition, eight OPD projects are presently under development in the NAS 
including Seattle, St. Louis, Louisville, Charlotte and Memphis. 
Traditional approaches require a plane to follow a stair-step pattern 
of arrival--descending and leveling off several times before landing. 
Each time a pilot has to stop descending and resume level flight, they 
have to throttle up the engines. These OPDs allow planes to continually 
descend to the airport from high altitudes without having to level off, 
or step down, at interim altitudes. This process of continuous descent 
results in significant fuel savings and a reduction in radio 
communications--especially, in complex, busy airspace around major 
airports.
    Sustainable alternative fuels development and deployment offer 
prospects for environmental improvements, energy security, and economic 
stability for aviation. We're working cooperatively with the industry 
through the Commercial Aviation Alternative Fuels Initiative (CAAFI) to 
develop ``drop-in'' fuels. We achieved approval of a synthetic fuel in 
2009 (ASTM D7566), the first new fuel standard in decades. We are on 
track to achieve a fuel standard that will allow a 50% blend of a 
synthetic fuel with jet fuel this year.
    We do want to point out that we are not alone in these efforts. We 
are committed to working smarter and more leanly, and to that end, we 
are partnering with others to leverage their knowledge and resources to 
augment ours. We engage with industry via advisory boards and with a 
multitude of international organizations. The Joint Planning and 
Development Office (JPDO) facilitates partnerships across the 
government agencies including FAA, NASA and the Departments of Defense, 
Commerce and Homeland Security. The JPDO supports the future vision for 
NextGen by developing the long-term research plan for improvements that 
extend beyond the 2018 planning window that is FAA's focus.
    Through our coordination with our internal and external partners, 
we have been able to identify research gaps, reduce duplication of 
efforts, and leverage available resources. One of our most important 
research partners is, of course, NASA. That agency's contributions to 
our research and development are of such vital importance that, as of 
January 2011, we have assigned an FAA liaison to NASA's Aeronautics 
Research Mission Directorate (ARMD) to identify research and 
development collaboration opportunities and ensure stronger and timely 
coordination between FAA and NASA.
    One of the many ways we partner with NASA under the auspices of the 
JPDO is on a series of Research Transition Teams (RTT). Four pilot RTTs 
were initiated in 2007 to ensure that research and development needed 
for NextGen implementation is identified, conducted, and effectively 
transitioned to the implementing agency. These include:

        <bullet>  Integrated Arrival/Departure/Surface

        <bullet>  Efficient Flow into Congested Airspace

        <bullet>  Dynamic Airspace Configuration

        <bullet>  Flow-Based Trajectory Management

    Both NASA and FAA collaborated through these RTTs to conduct joint 
research, simulation, and field trials of NextGen technologies. Through 
this interaction selected algorithms have been transferred from NASA to 
the FAA, along with research results to inform the implementation 
process of the given technologies.
    We are also partnering with NASA on our NextGen Human Factors 
Research Coordination Plan. Our work began in September 2010 and we 
anticipate that the final product will be published this month by the 
JPDO. This product will describe key coordination activities 
recommended by Government Accountability Office (GAO) and the 
Department of Transportation's Office of the Inspector General, namely: 
identification of initial focus areas for research, establishment of 
methods for leveraging past and current human factors research, and 
creation of an inventory of existing facilities for human factors 
research. The coordination process leverages GAO-recommended best 
practices to help enhance and sustain collaboration among Federal 
agencies. This is an aggressive renewed effort to formalize existing 
human factors research coordination process between FAA and NASA, and 
begins an annual coordination process between our two agencies to 
review planned research efforts, identify gaps, monitor and evaluate 
progress, and report results.
    NASA also is a vital collaborator with the FAA in its Partnership 
for Air Transportation Noise and Emission Reduction (PARTNER) Center of 
Excellence supporting development of aviation technologies and 
operational procedures to reduce fuel burn and environmental impacts 
due to noise and emissions.
    On the Department of Defense side, we have an Air Force Research 
Lab (AFRL) Liaison to FAA for NextGen. In 2010, the Air Force assigned 
a NextGen research liaison to FAA to work closely with researchers to 
identify opportunities to leverage relevant research, laboratory 
capabilities and expertise available within AFRL. Our joint goal is to 
advance the air traffic management research and technology required for 
FAA to implement our National Airspace System (NAS) mid-term 
capabilities as defined in the Enterprise Architecture and the NextGen 
Implementation Plan (NGIP). The ARFL Liaison partnership, in 
particular, has helped advance Human Factors, Unmanned Aircraft Systems 
(UAS) and sustainable alternative fuels work.
    Finally, we work closely with the JPDO to continue to define our 
future needs and priorities. The JPDO works to mitigate research and 
development risk for 2025 by analyzing various issues, such as:

        <bullet>  UAS and other advanced technologies that will require 
        careful transition and ultimately lead to NAS integration

        <bullet>  Trajectory Based Operations

        <bullet>  Potential environment constraints.

    The JPDO works with FAA to coordinate development of information 
data sharing standards, models, and integration of advanced aviation 
weather forecasts into air traffic control tools. I am pleased to 
report that our efforts have been paying off. In Fiscal Year 2010, we 
have completed several research and development efforts in the safety 
arena. In partnership with the National Oceanic and Atmospheric 
Administration's National Weather Service, FAA has developed the 
Weather Research and Forecasting (WRF) Model, an operational next-
generation numerical weather prediction system designed to serve both 
operational aviation forecasting and atmospheric research needs. FAA-
funded researchers also developed the Graphical Turbulence Guidance 
(GTG) product which provides contours of weather turbulence potential 
out to 12 hours. The current product, GTG2, operationally implemented 
on Aviation Digital Data Service in FY 2010, provides forecasts for 
clear air turbulence from 10,000-45,000 feet. The Congressional Joint 
Economic Committee estimates that air traffic delays cost the U.S. 
Economy over $41 billion in 2007, of which 70% are related to adverse 
weather--and as the demand for air traffic grows, air traffic delays 
and the associated economic toll will only increase. We have determined 
that 2/3rds of these weather related delays are avoidable with more 
accurate and better integrated weather information for decision-making, 
potentially reducing the number of delays by 46% and saving $19 billion 
annually. The FAA, NOAA and other partners are working to realize these 
savings and accommodate the expected demand growth.
    In partnership with the Air Transport Association's Human Factors 
Committee and Alaska Airlines, we completed beta testing of new 
training material and procedures to improve safety in Airline 
Maintenance and Ramp Operations. FAA developed Front Line Manager Best 
Practices Quick Reference Guide (FLM QRG) to assist air traffic front 
line managers in preventing errors through performance management. FLM 
QRG provides helpful information on topics such as communications, 
improving performance, training, and leadership.
    In the NextGen arena, we have completed a Wake Turbulence 
Separation Safety Risk assessment to reclassify all B757s in the same 
weight class and harmonize the weight boundary between the US Heavy and 
Large from 255,000 to 300,000 lbs, thus harmonizing with ICAO. This 
successful change was implemented April 8, 2010. The completion of the 
Wake Turbulence Safety Risk assessment for the B787 Dreamliner has been 
submitted to the FAA Safety Management System for adoption. and we have 
ongoing work with the B747-8 and A380 in response to satisfying the 
NTSB recommendation A-94-056. These efforts address the need to 
mitigate the risk for wake turbulence through the development of safe 
wake separation standards prior to entry into service of new aircraft 
and to continue this evaluation early in the service life.
    We have completed Human-in-the-Loop Simulations and flight trials 
for the 4-Dimensional (4D) Flight Management System (FMS) Trajectory-
Based Operations (TBO) and partnered with Alaska Airlines to conduct 4D 
FMS TBO Initial Flight Trials at Seattle. In response to the RTCA Task 
Force 5 recommendations, FAA has partnered with Federal Express and 
Delta Airlines to field test the Collaborative Departure Queue 
Management surface management system at Memphis and Orlando. We 
completed initial investigations, including Human-in-the Loop 
simulations, into application of Data Communications in the terminal 
domain, and conducted Staffed NextGen Tower proof-of-concept field 
demonstrations at Dallas Fort Worth Airport in August 2010. Finally, in 
partnership with Customs and Border Protection (CBP), we conducted 
flight trials with CBP's Predator UAS system at Cape Canaveral to 
investigate potential solutions to help with integration into the NAS. 
This is the first in a series of progressive demonstrations that are 
planned for next year, with an expanding list of partners. Each of 
these accomplishments takes us step-by-step closer to realizing the 
full benefits of NextGen.
    In the airport environment, I am pleased to report that we have 
developed a new FAA Wildlife Website/Database with a cell phone 
application for reporting wildlife strikes. Additionally, we have 
installed a pilot Runway Status Light (RWSL) system at Boston-Logan 
Airport aimed at investigating RWSL applicability for intersecting 
runways. We conducted Human-in-the-Loop simulations using Converging 
Runway Display Aid (CRDA) at Newark Airport. Finally, we have recently 
completed installation of prototype Low Cost Ground Surveillance 
systems at Spokane, WA; Manchester, NH; and San Jose, CA. These cost 
effective systems offer the potential to provide an added layer of 
safety by giving air traffic controllers basic ground surveillance for 
aircraft and vehicles operating on runways and adjacent taxiways, where 
current radar-based ground surveillance is not available.
    As our recent accomplishments illustrate, our approach to research 
and development with an eye toward maintaining our leadership in 
aviation while leveraging our partnerships to maximum effect is bearing 
fruit. As the aviation industry continues to evolve and change, it is 
vitally important that our country leads the world in this sector. I 
look forward to working with this Congress to ensure that we do.
    This concludes my prepared remarks. Thank you again for the 
opportunity to appear before you. I would be happy to answer any 
questions that you might have.

                       Biography for Victoria Cox

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As the Air Traffic Organization's Senior Vice President for NextGen 
and Operations Planning, Vicki Cox provides increased focus on the 
transformation of the nation's air traffic control system by providing 
systems engineering, research and technology development, and test and 
evaluation expertise. She is also responsible for the NextGen portfolio 
and its integration and implementation.
    Within the FAA, Cox has served as the Director of the ATO's 
Operations Planning International Office, the Director of Flight 
Services Finance and Planning and the Program Director of the Aviation 
Research Division.
    Prior to joining the FAA, Cox was Director of International 
Technology Programs in the Office of the Director of Defense Research 
and Engineering in the Office of the Secretary of Defense. She has an 
extensive research and development and program management background, 
having supported the Deputy Undersecretary of Defense for Science and 
Technology as the DOD Laboratory Liaison. She also worked as a Program 
Manager for a number of ballistic missile defense technology programs 
for the U.S. Air Force. A physicist, Cox served as Chief of Physics and 
Scientific Director of the European Office of Aerospace Research and 
Development in London. She also worked as a scientist responsible for 
thermal vacuum conditioning and testing of the Hubble Telescope for 
NASA.
    Cox graduated from Converse College and received a Master's degree 
from East Carolina University. She has a certificate in U.S. National 
Security Policy from Georgetown University and is a DOD Level III 
Certified Acquisition Professional in Systems Planning, Research, 
Development and Engineering. She also earned her private pilot's 
license in 1985.

    Chairman Palazzo. Thank you. I now recognize Mr. Calvin 
Scovel, Inspector General, U.S. Department of Transportation.

 STATEMENT OF HON. CALVIN SCOVEL III, INSPECTOR GENERAL, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Mr. Chairman, Ranking Member Fudge, Members of 
the Subcommittee, thank you for inviting me here today to 
testify on FAA's NextGen efforts.
    NextGen aims to fundamentally transform our aviation system 
to better manage air traffic and reduce congestion over the 
next several decades. Since FAA launched this complex effort in 
FY 2004, we have reported on the management challenges FAA 
faces in delivering NextGen's promised benefits.
    Today I will discuss two areas that could impact FAA's 
ability to meet long-term NextGen goals. First, schedule delays 
and cost increases with the En Route Automation Modernization 
Program or ERAM and second, coordination gaps with FAA's 
partner agencies on key research and development efforts. I 
will also highlight actions needed to strengthen FAA's 
management of NextGen initiatives.
    ERAM is NextGen's primary tool for processing flight data 
and serves as the hub system for achieving some of its most 
beneficial capabilities. Without ERAM other programs intended 
to provide more efficient data sharing and airspace routes will 
not be possible.
    FAA originally planned to fully deploy ERAM by the end of 
2010, at a cost of $2.1 billion, but significant software 
problems at the initial test sites have pushed deployment out 
by four years. FAA estimates that overall ERAM delays will cost 
an additional $330 million. Our work in a recent MITRE 
analysis, however, suggests total cost growth could be 
significantly more, as much as $500 million.
    FAA will also incur other costs to sustain aging equipment 
longer than planned and to retrain controllers on both legacy 
and ERAM systems. Cost escalations of this magnitude could 
affect FAA's capital budget and crowd out other projects.
    In addition to keeping key programs on track, FAA must 
address research and development gaps with its partner 
agencies, such as the Department of Defense. Multi-agency 
coordination on NextGen is not only mandated by law, but it is 
needed to achieve key capabilities and stay on track with 
NextGen's cost, schedule and performance goals.
    These key research gaps concern integrating weather 
information into advanced automated systems, establishing joint 
surveillance requirements to securely track aircraft, 
incorporating unmanned aircraft systems into domestic airspace, 
and assessing NextGen's human factors impact on pilots and 
controllers.
    As we reported last June, FAA's delayed decisions on 
critical requirements have impacted other agencies' R&D plans 
and NextGen's overall progress. For example, FAA has yet to 
determine how much responsibility to delegate to pilots versus 
controllers and ground systems to track aircraft. Another major 
factor in NextGen cost planning will be the degree to which FAA 
consolidates or eliminates air traffic facilities.
    At the same time, FAA continues to lack an integrated 
budget document to track partner agencies' involvement in 
NextGen and align resources. FAA has been working toward this 
for over four years. While FAA's partner agencies support 
NextGen, some have not adjusted their R&D budgets and programs 
specifically for NextGen efforts. It is, therefore, difficult 
for FAA and Congress to determine if FAA is leveraging the 
right research, if funding is adequate for specific efforts, or 
if projects will improve the air transportation system and at 
what cost.
    To strengthen the multi-agency approach and better manage 
long-term NextGen initiatives, there are five key areas where 
the FAA needs to take action. First, clarify FAA's Joint 
Planning and Development Office's responsibilities for critical 
NextGen development areas such as simulation and modeling, 
technology transfer, prototype development, and policy 
formulation.
    Second, finalize performance goals and matrix for NextGen. 
Until FAA moves beyond the broader goals that it has laid out, 
it will be difficult to assess short and long-term efforts for 
improving airport arrival rates, reducing fuel burn, or 
decreasing FAA operating costs.
    Third, complete efforts to establish an integrated NextGen 
budget document. Fourth, fully leverage DOD's expertise. While 
DOD contributes to NextGen in an advisory capacity, FAA has not 
yet fully assessed DOD's vast research and development 
portfolio or technology that could help reduce risk with the 
precision landing systems envisioned for NextGen.
    Finally, secure a workforce with the skill sets needed to 
execute NextGen. While FAA recently completed an initial 
acquisition workforce plan, the plan contains no specifics on 
the method or timing of this effort. We have work underway to 
examine FAA's plans for determining its acquisition workforce 
needs, and its progress in addressing them.
    Mr. Chairman, this concludes my prepared statement. I would 
be happy to address any questions you or Members of the 
Subcommittee may have.
    [The prepared statement of Mr. Scovel follows:]

               Prepared Statement of Calvin L. Scovel III

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Mr. Chairman and Members of the Subcommittee:

    We appreciate the opportunity to testify today on the Federal 
Aviation Administration's (FAA) efforts to develop and transition to 
the Next Generation Air Transportation System (NextGen). As you know, 
NextGen is a central issue in reauthorizing a wide range of FAA 
programs, including the Agency's research and development efforts and 
capital budgets. FAA is developing NextGen to meet anticipated future 
air travel demands. The NextGen effort involves a significant overhaul 
of the National Airspace System (NAS) to shift from a ground-based to 
satellite-based air traffic management system. This will require 
considerable research and development and successful transfer of 
technology between Federal agencies and the private sector.
    Since the effort began in fiscal year 2004, we have reported on the 
cost and schedule risks as well operational and management challenges 
that FAA must address to successfully implement NextGen. Today, I will 
discuss two areas that have significant impact on FAA's ability to meet 
long-term NextGen goals: (1) the status of the En Route Automation 
Modernization (ERAM) program, a key modernization effort that could 
affect the pace of NextGen, and (2) FAA's efforts to coordinate and 
reach consensus with partner agencies on key research and development 
efforts. I will conclude with actions needed to strengthen FAA's 
management of long-term NextGen initiatives.

SUMMARY

    FAA's key long-term goals for NextGen, such as increasing airspace 
capacity and reducing flight delays and congestion, depend on the 
successful implementation of ERAM--a $2.1 billion system for processing 
flight data. However, software problems with ERAM have caused 
significant delays that will affect FAA's NextGen plans and costs. 
NextGen's success also relies on a strong, multi-agency approach to 
develop safe and effective aviation technologies. While FAA has made 
progress in coordinating its partner agencies' diverse Federal research 
and long-term plans, it has not reached consensus on fundamental issues 
that will materially affect the cost, schedule, and capabilities of 
NextGen. We have identified several management actions that FAA can 
take now to clarify roles, set performance goals, and align research 
priorities so that NextGen delivers the promised benefits to FAA and 
airspace users.

BACKGROUND

    In 2003, Congress mandated that FAA establish the Joint Planning 
and Development Office (JPDO) and create and carry out a plan for 
implementing NextGen by 2025.\1\ Congress also required the JPDO to 
coordinate diverse research efforts of other Federal agencies, 
including the Departments of Defense (DOD), Commerce, and Homeland 
Security (DHS) and the National Aeronautics and Space Administration 
(NASA). Since 2006, our reports and testimonies have identified NextGen 
as a high-risk effort and one of the Department's top management 
challenges for fiscal years 2008 through 2011. We have made numerous 
recommendations to help FAA achieve its NextGen goals. While initial 
planning for NextGen focused on implementing improvements through 2025, 
FAA has more recently emphasized initiatives for the near and midterm, 
defined as between 2015 and 2018.
---------------------------------------------------------------------------
    \1\ Vision 100--Century of Aviation Reauthorization Act, Pub. L. 
No. 108-176 (2003).

DELAYS IN ERAM'S IMPLEMENTATION HAVE COST AND SCHEDULE IMPLICATIONS FOR 
                    NEXTGEN

    As the primary NextGen tool for processing en route \2\ flight data 
across the NAS, ERAM's implementation is fundamental to achieve the 
mid- and long-term benefits envisioned for NextGen. ERAM will replace 
all the existing hardware and software at air traffic facilities that 
manage high-altitude traffic. FAA originally planned to deploy ERAM to 
20 en route facilities by the end of 2010 at a cost of $2.1 billion. 
However, due to software problems at its initial operating sites, ERAM 
is experiencing major schedule slips and cost increases. These delays 
could significantly impact the cost and pace of NextGen--without ERAM, 
the key benefits of several other programs, such as more efficient data 
sharing and advanced airspace routes, will not be possible.
---------------------------------------------------------------------------
    \2\ En route airspace is typically above 10,000 feet where aircraft 
reach their cruising altitudes and fly as direct a route as possible 
between their points of departure and destination.

ERAM Software Problems Have Caused Schedule Delays and Cost Overruns

    Although ERAM passed testing at FAA's Technical Center and achieved 
Government acceptance,\3\ testing at initial operating sites in Salt 
Lake City and Seattle revealed significant software-related problems 
that have pushed schedules well beyond original completion dates and 
increased cost estimates by hundreds of millions of dollars. These 
problems include interface issues between the key sites and other air 
traffic facilities, radar processing failures, errors that tag flight 
data to the wrong aircraft, and hand-off problems between controllers. 
To compensate for these problems, controllers relied on workarounds 
that increased their workload and fatigue and diverted them from 
managing air traffic. As a result of these issues, FAA postponed its 
plans to fully deploy ERAM at the initial sites--originally scheduled 
for December 2009.\4\
---------------------------------------------------------------------------
    \3\ Government acceptance (GA) of ERAM by the FAA Technical Center 
requires meeting specific criteria established for the project 
baseline. These criteria include successfully completing developmental 
testing activities per the Statement of Work, listing all problem 
trouble reports, demonstrating that all contractual requirements are 
satisfied, and completing both functional and physical configuration 
audits. At GA, the Government (i.e., FAA with ERAM) assumes full 
control and responsibility of the system.
    \4\ FAA delayed the in-service (ISD) and operational readiness 
decisions. An ISD authorizes deployment of a system into the 
operational environment. It occurs after demonstration of initial 
operational capability at the key test site. The ISD is based on 
testing to verify performance and establishes the foundation for 
operational readiness to be declared at key site and subsequent sites 
following completion of joint acceptance and inspection by the 
operating service organization and certification of compliance with 
information security requirements. For ERAM, the Operational Readiness 
Demonstration (ORD) is the final certification required for the system 
to become operational and for FAA to no longer retain the HOST Computer 
system as a backup.
---------------------------------------------------------------------------
    Last March, FAA placed a moratorium on further operational ERAM 
testing at the 2 initial sites to fix the more than 200 problems 
identified, reassess its efforts, and develop a new course of action. 
FAA has since resumed testing, and senior FAA officials state that they 
are improving system stability, continuing testing at additional sites, 
and seeing progress in conducting continuous operations without the 
need to fall back to the legacy system. FAA now plans to complete ERAM 
in 2014--a schedule slip of 4 years--with the next major milestones 
focused on getting the Salt Lake City and Seattle sites fully 
operational.\5\ However, FAA and its contractor plan to add new 
capabilities while attempting to resolve problems identified in earlier 
software versions, which could cause further schedule delays. Updated 
software releases have already exhibited new problems, including inter-
facility interface issues that lock up the system and a significant 
software failure that resulted in Seattle falling back to the legacy 
system for several weeks.
---------------------------------------------------------------------------
    \5\ Independent Operational Assessment, formally called Independent 
Test and Evaluation (IOT&E), is an assessment of a new system's 
operational effectiveness and operational suitability performed by an 
Air Traffic Service (ATS) Test Team on systems designated for IOT&E by 
ATS.
---------------------------------------------------------------------------
    While FAA estimates that delays with ERAM will translate into an 
additional $330 million to complete deployment, our work and a recent 
MITRE analysis suggest the total cost growth could be as much as $500 
million.\6\ Cost escalations of this magnitude in today's fiscally 
constrained environment will affect FAA's capital budget and crowd out 
other projects. Further, FAA will incur additional costs to sustain 
aging equipment longer than planned and retrain controllers on both the 
legacy and ERAM systems. A driving factor behind potential future 
delays and additional cost overruns will be ERAM's performance at large 
locations, like Chicago and New York Center. The MITRE analysis 
cautions that FAA's initial corrective action plan for ERAM was not 
comprehensive and that additional time and resources will be necessary 
to accommodate site-specific operational differences.
---------------------------------------------------------------------------
    \6\ MITRE Corporation and Massachusetts Institute of Technology/
Lincoln Laboratory Report, Independent Assessment of the ERAM Program, 
October 15, 2010. For official use only and not approved for public 
release.

Continued Problems With ERAM Will Impact Other NextGen Efforts

    Continued problems with ERAM will affect both the cost and pace of 
FAA's other NextGen efforts. Our work has shown critical 
interdependencies between ERAM and three of five NextGen technologies 
that are key to fundamentally changing how air traffic is managed (see 
table 1).\7\ These three technologies have already been allocated more 
than $500 million to integrate and align with ERAM.
---------------------------------------------------------------------------
    \7\ These programs include the Automatic Dependent Surveillance-
Broadcast (ADS-B), System-Wide Information Management (SWIM), NextGen 
Data Communications, National Airspace System Voice Switch, and NextGen 
Network Enabled Weather.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition to these programs, FAA enterprise architecture 
documents acknowledge that ERAM delays will also affect FAA's 
development of trajectory-based operations \8\ and the transition to a 
common automation platform for terminal and en route operations. 
Prolonged delays with ERAM could also impact future software 
enhancements for new NextGen capabilities, such as flexible and dynamic 
airspace that will allow controllers to shift segments of airspace to 
other controllers based on weather and changes in traffic patterns. 
These future enhancements are currently estimated to cost $1 billion.
---------------------------------------------------------------------------
    \8\ Trajectory-based operations focus on more precisely managing 
aircraft from departure to arrival with the benefits of reduced fuel 
consumption, lower operating costs, and reduced emissions.

LACK OF COORDINATION BETWEEN FAA AND PARTNER AGENCIES ON KEY RESEARCH 
                    AND DEVELOPMENT EFFORTS WILL IMPACT NEXTGEN'S LONG-
                    TERM COST, SCHEDULE, AND PERFORMANCE

    Leveraging other agencies' research is key to achieving the 
capabilities envisioned for NextGen since FAA conducts little long-term 
air traffic management research. In June 2010, we reported that while 
FAA is working to coordinate with the Department of Commerce, DOD, DHS, 
and NASA on NextGen plans, it has yet to make critical design decisions 
or address research and development gaps with these partner agencies 
that will affect NextGen's cost, schedule, and performance.\9\ 
Unresolved issues include integrating weather information into advanced 
automated systems, determining joint surveillance requirements to track 
aircraft, incorporating Unmanned Aircraft Systems (UAS), and assessing 
NextGen's human factors impact.
---------------------------------------------------------------------------
    \9\ OIG Report Number AV-2010-068, ``Timely Actions Needed To 
Advance the Next Generation Air Transportation System,'' June 16, 2010. 
OIG reports and testimonies are available on our website: 
www.oig.dot.gov.

FAA Has Not Made Key Decisions About the Design of the Long-Term 
                    NextGen System

    FAA has delayed critical decisions on how key NextGen capabilities 
will be designed and integrated. Continuing to delay these decisions 
will slow NextGen's overall progress and impact NASA's and other 
agencies' research and development efforts. According to FAA, decisions 
on the following will determine NextGen capabilities, timing, and 
costs:

        <bullet>  Division of responsibility delegated to pilots in the 
        cockpit and to controllers and FAA ground systems for tracking 
        aircraft.

        <bullet>  Level of automation needed to support division of 
        responsibility, ranging from today's largely manual flight 
        management to a primarily automated system centered on machine-
        to-machine exchanges with little controller involvement.

        <bullet>  Number and locations of air traffic facilities needed 
        to support NextGen--the degree to which FAA eliminates or 
        consolidates air traffic facilities is a major factor in both 
        capital and operating costs for NextGen.

    FAA has stated that NextGen is one of the most complex systems ever 
developed by the U.S. Government. As a result, FAA will need to obtain 
a workforce with the specific skill sets to develop and execute new 
NextGen technologies and manage the transition from legacy systems. In 
response to a recommendation we made in February 2007, FAA commissioned 
the National Academy of Public Administration (NAPA) to assess the 
skill sets needed for NextGen implementation.\10\ In its September 2008 
report, NAPA identified 26 competencies needed to execute NextGen that 
FAA lacks.\11\ These include program management, software development, 
contract administration, and systems engineering with an emphasis on 
human factors considerations. FAA has developed a segmented Acquisition 
Workforce Plan, an important first step, but to meet the goals set out 
in the NAPA study, the plan will need to evolve further with a more 
defined strategy to acquire the needed skill sets for NextGen.
---------------------------------------------------------------------------
    \10\ OIG Report Number AV-2005-031, ``Joint Planning and 
Development Office: Actions Needed To Reduce Risks With the Next 
Generation Air Transportation System,'' February 12, 2007.
    \11\ Report by a panel of the National Academy of Public 
Administration, ``Identifying the Workforce To Respond to a National 
Imperative--The Next Generation Air Transportation System (NextGen),'' 
September 2008.
---------------------------------------------------------------------------
    A NextGen portfolio analysis, commissioned by JPDO, concluded that 
some NextGen automated air and ground capabilities originally planned 
for 2025 may not be implemented until 2035 or later and could cost the 
Government and airspace users significantly more than the projected 
cost estimate of $40 billion.\12\ JPDO officials recently stated that 
research priorities need to be established as well as an executable 
path from the near and midterm to the long term.
---------------------------------------------------------------------------
    \12\ The analysis is referred to as the NextGen portfolio or 
``trade space'' analysis. FAA is continuing to update and revise the 
analysis. The study sought to examine the costs, risks, and benefits of 
the JPDO Integrated Work Plan targeted for 2025.

Disagreements Between FAA and the Department of Commerce Impact NextGen 
                    Weather Systems

    Technical disagreements between FAA and Commerce over how to 
synchronize national applications of observed, forecast, and 
disseminated weather data may delay NextGen's weather data system 
beyond its scheduled 2013 completion date. Commerce has the lead role 
in developing the 4D Weather Cube, which is expected to provide a 
common picture of weather for the entire country that airspace users 
may view and apply directly in flight planning and responding to 
inclement weather.\13\
---------------------------------------------------------------------------
    \13\ The 4D Weather Cube is to be a distributed, national database 
of gridded and interpolated weather observations and automated 
analyses, scaled consistently over time for any location above the 
continental United States. It is expected to provide observations with 
respect to latitude, longitude, altitude, and time.
---------------------------------------------------------------------------
    JPDO's analysis of ongoing weather efforts identified policy, 
funding, and technical issues, including defining requirements and who 
pays for what capabilities. Officials in Commerce's National Oceanic 
and Atmospheric Administration (NOAA) indicated that their work on the 
4D Weather Cube focuses exclusively on Commerce's requirements. 
Additionally, NOAA expects FAA to provide funding or reimbursement for 
costs to support development of aviation-related NextGen requirements.
    To address these issues, FAA, Commerce, and DOD have developed a 
NextGen Weather Plan. In addition, JPDO created and hosts the NextGen 
Executive Weather Panel to improve coordination between the three 
agencies; members include the FAA Senior Vice President for NextGen and 
Operations Planning and the NOAA Assistant Administrator for Weather 
Services. However, much work remains for the agencies to better define 
their roles and expectations regarding costs and implementation. This 
year, the Office of Management and Budget tasked FAA and Commerce to 
revalidate 4D Weather Cube requirements and review cost and performance 
parameters. As part of these efforts, Commerce was asked to define what 
its requirements would be to develop the Cube without including FAA's 
aviation costs.

Partner Agencies Have Not Established Joint Surveillance Requirements

    FAA, DOD, and DHS have not established joint surveillance 
requirements, which are needed to track aircraft and achieve the 
integrated surveillance capabilities envisioned for NextGen. This will 
require a collaborative effort to develop approaches and requirements 
to meet the surveillance needs of all partners. Each of these agencies 
have the need for surveillance data but they do not all share the same 
requirements. Without closer coordination and agreement about 
surveillance requirements, there is potential for duplicative efforts 
and gaps in airspace coverage.
    Thus far, DOD and DHS have not identified any budgets or programs 
specifically to support NextGen, but joint surveillance requirements 
are one of their main concerns in maintaining security coverage for the 
United States. This includes tracking aircraft designated as 
potentially non-cooperative targets, a capability currently provided by 
FAA through long and short range radar.\14\ Moreover, when FAA 
implements ADS-B, it plans to decommission a number of unneeded 
secondary radar systems.\15\ If DOD or DHS should determine that some 
of these radar must remain in service, these agencies would have to 
assume the responsibility for the maintenance and replacement costs. 
Therefore, FAA, DOD, and DHS must focus more attention on finalizing 
requirements, prioritizing research and development efforts to achieve 
a secure next generation surveillance system, and identifying 
individual partner agency responsibilities.
---------------------------------------------------------------------------
    \14\ The term ``non-cooperative targets'' refers to aircraft that 
are not transmitting flight information to FAA ground systems.
    \15\ A secondary radar operates on the coded reply sent from the 
airborne radio beacon transponder in an aircraft in response to an 
interrogation signal sent from the ground station.

Cross-Agency Attention Is Needed To Safely Incorporate Unmanned 
                    Aircraft Systems Into the National Airspace System

    Addressing unmanned aircraft system (UAS) operations has been a 
recurring issue in JPDO's annual cross-agency gap analysis. A number of 
safety issues must be addressed, such as risks of UAS operations near 
populated areas and potential collisions with manned aircraft. FAA 
currently authorizes Government UAS operations on a limited basis but 
is developing a regulatory framework to address the unique 
characteristics of UAS. As recognized in FAA's annual analysis, this 
will require new cross-agency standards and procedures to assess the 
impact of UAS on air traffic operations and safety, which will also 
impact how FAA develops NextGen procedures. As a result, NASA has 
included an additional $30 million in its fiscal year 2011 budget 
request to develop technologies that will allow unmanned aircraft to 
have routine access to the NAS. This effort will focus initially on 
Government-owned and -operated UAS aircraft, followed by private-sector 
UAS aircraft.

FAA Has Not Developed a Cross-Agency Plan To Identify and Address 
                    NextGen Human Factors Issues

    The NextGen concept of operations calls for significant changes to 
the roles of controllers and pilots. A focused ``human factors'' 
research effort on the impact of such changes, such as how highly 
automated systems will affect controllers, will ensure that new 
concepts and technologies can be safely implemented. However, as we 
have noted in the past, FAA continues to lack a cross-agency research 
plan that (1) establishes an agreed-upon set of initial focus areas for 
research, (2) inventories existing facilities for research, and (3) 
capitalizes on past and current research.
    FAA's inadequate attention to such research when implementing the 
Standard Terminal Automation Replacement System (STARS) resulted in 
significant cost increases and schedule slips.\16\ JPDO officials state 
that they are developing a cross-agency human factors plan and plan to 
complete it later this year.
---------------------------------------------------------------------------
    \16\ STARS was designed to provide the software and hardware 
platform necessary to support future air traffic control tools. In 
1996, FAA selected STARS as the centerpiece of its strategy to 
modernize controllers' terminal automation systems. However, due to 
technological problems and costs that far exceeded original estimates, 
FAA delayed deploying STARS as planned. Over the last several years, 
FAA has deployed the Common Automated Radar Terminal System (Common 
ARTS) hardware and software to facilities where FAA intends to deploy 
STARS.

ACTIONS NEEDED TO STRENGTHEN FAA'S MANAGEMENT OF LONG-TERM INITIATIVES

    In closing, I would like to highlight a number of areas where FAA 
needs to take action to strengthen the multi-agency approach to 
developing NextGen, better leverage resources, and prevent duplicative 
efforts.
    Clarify the Role of the JPDO: There is confusion within FAA and 
industry about JPDO's role in advancing NextGen. FAA has reorganized 
its NextGen efforts several times in the last 4 years, most recently 
placing JPDO under the Deputy Administrator, separate from the primary 
office overseeing NextGen implementation. While Department and FAA 
officials recognize the need to better define JPDO's mission, no 
definitive action has been taken to determine what role, if any, JPDO 
will play in critical NextGen development issues, such as simulation 
and modeling, technology transfer, prototype development, or NextGen 
policy issues.
    Finalize Performance Goals and Metrics for NextGen: While FAA has 
established broad goals for NextGen, it has not identified clear goals 
for performance capabilities or metrics for NextGen initiatives. This 
was a major concern recently reported by a Government-industry task 
force on implementing NextGen in the near term.\17\ As NASA and FAA 
officials point out, performance goals and metrics for NextGen may 
differ for long-term efforts; this includes requirements and priorities 
for future research and development. Until FAA provides clarification, 
it will be difficult to assess short- and long-term efforts for 
improving airport arrival rates, reducing fuel burn, or decreasing FAA 
operating costs.
---------------------------------------------------------------------------
    \17\ RTCA, ``NextGen Mid-Term Implementation Task Force Report,'' 
September 9, 2009.
---------------------------------------------------------------------------
    Establish Research Priorities and Develop an Integrated NextGen 
Budget Document That Aligns Partner Agency Resources: FAA and JPDO have 
been working on a NextGen integrated budget document (similar to the 
Office of Management and Budget Exhibit 300 \18\ ) for over 4 years 
with little to show for the effort. This tool is important to track 
partner agencies' involvement in NextGen and to align resources. While 
generally supportive of NextGen, some partner agencies have not 
adjusted their research and development budgets and programs or changed 
requirements to accommodate NextGen efforts. The lack of progress with 
the integrated budget document is traceable to a number of factors, 
including complexity, the lack of a common method to identify NextGen-
related budget items, and FAA's focus on running and maintaining the 
existing air traffic system. Without an integrated budget document with 
clear priorities, it is difficult for both FAA and Congress to 
determine if FAA is leveraging the right research, if funding is 
adequate for specific efforts, or if projects will improve the air 
transportation system and at what cost.
---------------------------------------------------------------------------
    \18\ The Office of Management and Budget Exhibit 300 is designed to 
ensure that the business case for investments is made and tied to 
agency mission statements and long-term goals.
---------------------------------------------------------------------------
    Leverage DOD Research and Development for NextGen: Currently, DOD 
contributes to NextGen as a member on various committees, boards, and 
work groups. DOD has also taken the lead in network-centric operations 
efforts and is working with FAA and JPDO on surveillance issues.\19\ 
However, neither FAA nor JPDO have done a complete assessment of DOD's 
vast research and development portfolio and already derived 
capabilities. DOD's experience with enterprise architecture 
development, large-scale systems integration, and overall management of 
high-risk efforts could prove useful. Moreover, FAA could leverage DOD 
technology on a satellite-based Joint Precision Approach and Landing 
System to help reduce risk with precision landing systems envisioned 
for NextGen.\20\ In response to our June 2010 recommendation, FAA 
agreed to develop a plan to effectively review and identify DOD 
research and technologies that could be used for NextGen and establish 
mechanism to coordinate and transfer the information to FAA. According 
to JPDO officials, efforts are underway to assess DOD's research base 
and should be completed this year.
---------------------------------------------------------------------------
    \19\ DOD's Network-Centric Operations is a robust networking of 
information for geographically dispersed forces.
    \20\ The Joint Precision Approach and Landing System (JPALS) is a 
satellite-based system that will allow aircraft to land on any suitable 
land or sea-based surface worldwide, while minimizing the impact to 
airfield operations because of a low ceiling or poor visibility.
---------------------------------------------------------------------------
    Secure Necessary Expertise To Execute NextGen: FAA recently 
completed an initial acquisition workforce plan to address 
recommendations in the NAPA study--an important first step. However, 
the plan requires more development and clarification to be useful. For 
example, the plan does not specify how or when FAA will actually secure 
the necessary skill sets and expertise. We have work under way to 
examine FAA's plans for determining its acquisition workforce needs and 
progress in addressing them--including an assessment of FAA's oversight 
of its System Engineering 2020 support service contracts worth $7 
billion.
    That concludes my statement, Mr. Chairman. I would be happy to 
address any questions that you or other Members of the Subcommittee may 
have.

                   Biography for Calvin L. Scovel III

    Mr. Scovel is the sixth Inspector General of the U.S. Department of 
Transportation. He was nominated by President George W. Bush, confirmed 
by the Senate, and sworn in on October 27, 2006. Mr. Scovel is 
responsible for leading the efforts of 400-plus staff in support of 
DOT's priorities of transportation safety and effective program 
delivery and performance. Recent audit and investigative activities 
including congressional testimony have addressed the Department's 
implementation of the American Recovery and Reinvestment Act; safety 
and financing issues in multi-billion dollar highway and transit 
programs; and the Federal Aviation Administration's oversight of 
aviation safety and efforts to develop the Next Generation Air 
Transportation System.
    Mr. Scovel joined the Department of Transportation after 29 years 
of active service in the U.S. Marine Corps, from which he retired as a 
Brigadier General. His last military assignment was as a senior judge 
on the U.S. Navy-Marine Corps Court of Criminal Appeals. He previously 
served as Assistant Judge Advocate General of the Navy for Military 
Justice--the principal advisor to the Secretary of the Navy and the 
Judge Advocate General--on all criminal justice policy matters. He also 
commanded a military police battalion, which provided all security and 
law enforcement services for the Marine Corps Base in Quantico, 
Virginia.
    Mr. Scovel served as senior legal advisor for the 4th Marine 
Expeditionary Brigade, which included all Marine amphibious forces in 
Operation Desert Storm and later in a NATO exercise above the Arctic 
Circle in Norway. A Marine judge advocate, Mr. Scovel served as 
prosecutor, defense counsel, or judge in 250 courts-martial that 
included charges of murder, rape, child sexual assault, and drug 
trafficking.
    His personal military awards include the Legion of Merit (four 
awards) and the Combat Action Ribbon. Mr. Scovel is also the recipient 
of the Secretary of Transportation's Gold Medal for Outstanding 
Achievement. This award was for his leadership of the OIG in supporting 
the Department of Transportation's recovery effort after the 2007 
collapse of the I-35 West Bridge in Minneapolis.
    Mr. Scovel received a Bachelor of Arts degree from the University 
of North Carolina at Chapel Hill and a Juris Doctor degree from Duke 
University. He also received a Masters degree from the Naval War 
College.

    Chairman Palazzo. Thank you. I now recognize our next 
witness, Dr. John Hansman, Chairman of the FAA Research, 
Engineering, and Development Advisory Committee.

    STATEMENT OF DR. R. JOHN HANSMAN, CHAIR, FAA RESEARCH, 
 ENGINEERING, AND DEVELOPMENT ADVISORY COMMITTEE, PROFESSOR OF 
   AERONAUTICS AND ASTRONAUTICS, DIRECTOR, MIT INTERNATIONAL 
                      CENTER FOR AVIATION

    Dr. Hansman. All right. As you can see I have some slides 
here, Chairman Palazzo. Thanks for the opportunity to talk, and 
members, faculty members can't talk without slides.
    I want to motivate first why we are doing the modernization 
of the system. So if you haven't seen this, this is a movie 
produced by NASA looking at the U.S. system. It starts in the 
afternoon period, if you look now, we are going into the 
overnight period. You can see the transcontinental flights and 
the flights going into and out of the cargo hubs.
    As dawn hits the East Coast, you can see the traffic expand 
and blossom. At the peak midday period in the system, we are 
tracking about 4 to 5,000 airplanes in the system. So this is a 
highly dynamic system that is totally integrated.
    Now, this is a picture of the system when it works well. 
Let me show you a picture on a day when weather hits New York. 
This is just flights going into the New York airports. You can 
see the weather in the upper right. You can see when the 
weather starts to hit New York, the airplanes are going into 
holding patterns. You can see that as the weather hits, 
airplanes start to go into holding patterns all the way across 
the U.S. You also see them go down the East Coast.
    So when we have a perturbation in the system that is so 
tightly coupled, these perturbations propagate through the 
system and result in delays throughout the entire system.
    So if we look at why we are doing modernization, why we do 
research and development. There are a number of drivers, but 
there are four key drivers. The first is safety, and we have 
actually done a remarkable job in safety. You can see this is 
data from Boeing looking into commercial fatal accident rates. 
You can see it has gone down tremendously. We have an 
incredibly safe system.
    We have also been worried about, in recent years, capacity 
and delay as the demand on the system comes up, as we get the 
types of growth that we have had, delays have gone up. You can 
see in the bottom left the delay data. You can see the drop 
after September 11, and you can see the delays built up again 
afterwards. You can see that the delays have gone down in the 
past couple of years in part due to the demand coming off the 
system with the economy in the downturn. It is our expectation 
that when the demand comes back up, the system will again reach 
its capacity constraints, and we will have significant delay in 
the system. Which is why we need to modernize.
    Now, there are two other really new drivers or emerging 
drivers that have occurred in recent years. One is the concern 
on fuel availability and cost. In the upper right you can see 
the rapid run up in fuel costs. There is a recent drop, but 
they have run up again. This has really driven up the need for 
more efficiency in the operation of the system.
    You can also see that there is increasing concern about 
environmental impact and in particular, greenhouse gas 
emissions. Today, aviation represents about between two and 
three percent of the manmade anthropogenic greenhouse gas 
emissions. As pressure comes to reduce greenhouse gas 
emissions, other emitters, particularly ground-based emitters, 
have much easier alternatives to go to low-carbon alternatives. 
So the percentage of contribution from aviation in the future 
is going to rise. There will be increasing pressure on aviation 
to reduce these gas emissions.
    So these are drivers for why we are doing the research.
    Now, I want to just get to the questions that were asked 
and try to address them quickly. First is what are the REDAC's 
chief concerns about the agency's R&D initiatives with regard 
to content and funding or the gaps. If so, what are they? The 
REDAC is generally supportive of the content of the R&D 
programs. There are some gaps. In particular, there is a 
concern about the complexity of the NextGen research and 
development plans, which actually make it hard to evaluate if 
there are gaps.
    There is a real need for processes to accelerate NextGen 
implementation. I will address that more in the next question, 
and there is a well-known problem of how to introduce unmanned 
aircraft systems in terms of their operations and our national 
airspace system.
    Another concern which was voiced previously is the level of 
technical expertise in key areas. In particular, areas of 
digital systems and software, which is very hard for the FAA to 
compete for talent in the open market.
    In terms of how well does the agency's research portfolio 
support timely implemention of NextGen, I would say the 
technology is not the issue. The challenge is actually in the 
operational approval of NextGen capabilities and procedures. It 
is very difficult to prove that this new thing that we are 
going to do is safe enough that it won't degrade the safety of 
the system that results in significant delay.
    Finally, how would you assess the role and effectiveness of 
the JPDO as the FAA's long-range planning office? JPDO has not 
been effective recently as a long-range planning office for the 
FAA. It was effective in the initial definition of NextGen, but 
its effectiveness has waned over the past years. I am happy to 
talk more about it in the questions.
    [The prepared statement of Dr. Hansman follows:]

               Prepared Statement of R. John Hansman, Jr.

Chairman Palazzo and Members of the Subcommittee:

    Thank you for the opportunity to comment on the Federal Aviation 
Administration's research and development capability. I am a Professor 
of Aeronautics and Astronautics at the Massachusetts Institute of 
Technology and the Co-Chair of the FAA Research and Development 
Advisory Committee (REDAC). The REDAC is a Congressionally mandated 
committee which advises the FAA Administrator on research and 
development.
    The role of research and development in the FAA is to support 
current and future operational requirements as well as the agency's 
mission of providing a safe, secure, and efficient air transportation 
system.
    The U.S. still has one of the safest and highest performance air 
transportation systems in the world, but the system is under stress due 
to increased demand (Figure 1) and emerging issues such as fuel costs 
(Figure 2), environmental concerns, ageing infrastructure, as well as 
others. The Congress, the FAA, and other government and community 
stakeholders have recognized the need to address these issues and 
responded through a number of initiatives including NextGen.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The system has run well in the past few years, although this cannot 
yet be attributed to NextGen. The accident rate and delays (Figure 3) 
are both down over the past 2 years although we are still experiencing 
congestion at the large hubs. This is, in part, a result of the 
reduction in the number of flights due to high fuel prices (Figure 2) 
and the weak economy. While the FAA has done a better job at managing 
delay in the system, it is likely that delay will increase as the 
economy strengthens and traffic levels rise.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    At the time NextGen was initiated, delay was the key issue 
motivating system improvement with assumptions of a three fold increase 
in traffic. Today, increasing fuel efficiency to reduce fuel costs and 
Green House Gas (GHG) emissions, as well as the integration of Unmanned 
Aircraft Systems (UAS) in the NAS, have emerged as key drivers of 
system evolution, and the projections on the rate of traffic have been 
reduced.
    I will comment briefly on the specific questions you have asked me 
to address.

        1.  What are the REDAC's chief concerns about the agency's R&D 
        initiatives with regard to content and funding? Are there any 
        gaps, and if so, what are they?

    The REDAC has been generally supportive of the specific content of 
the FAA's R&D programs. However, there are several areas where the 
REDAC has expressed concern.
    Complexity of NextGen Research and Development Plans--The REDAC is 
concerned that there does not appear to be a clear high level Research 
and Development plan for NextGen that articulates the critical NextGen 
needs and links them to the R&D portfolio. The REDAC understands the 
challenge of defining such a plan for a complex system such as NextGen. 
However, the plans and roadmaps that have been presented to the REDAC 
do not articulate a high level vision and are so detailed and complex 
that they are intractable.
    This makes it difficult to evaluate if the necessary R&D is being 
accomplished and how R&D results will be used. The REDAC has 
recommended that a high level R&D plan be developed from the existing 
more detailed plans and enterprise architecture in order to articulate 
the R&D vision and identify the critical path of R&D for NextGen.
    Research and Development Gaps--The REDAC has identified several 
areas where strengthened R&D, as well as agency commitment, would 
significantly enhance future NAS performance. These include research to 
support: the implementation of NextGen enabled capabilities including 
new approaches to safety and environmental review process; 
certification and routine operation of UAS in the NAS; and mitigation 
of adverse environmental effects of aviation.
    Level of Technical Expertise in Key Areas--The FAA has a unique 
need for expertise in key areas such as critical software and digital 
systems design, and human factors for both certification and 
acquisition. The REDAC has long been concerned that there has been 
inadequate progress in developing the core competency and technical 
workforce in these and other key areas. The problem is recognized by 
the agency but progress has been limited due to the FAA's inability to 
compete on the market for highly desirable talent.

        2.  In your view, how well does the agency's R&D research 
        portfolio support timely implementation of NextGen? How 
        effectively are new technologies being transitioned from 
        research to implementation?

    There are fundamental issues which will make the effective 
implementation of NextGen much more difficult than is generally 
appreciated. The issues are not with technology development, but rather 
stem from the ability of the FAA to assure, in a timely way, that 
fundamentally new operational procedures do not compromise safety or 
result in adverse environmental performance. The current operational 
approval processes are not equipped to deal with the magnitude of 
change envisioned in NextGen.
    It is extremely challenging and time consuming to evaluate the 
impact of a major NextGen change requiring fundamentally new safety and 
environmental impact reviews. It is much easier, and faster, to receive 
operational approval for changes which do not significantly alter the 
current operational procedures. As a consequence, there is the risk 
that NextGen technologies will only be used to fly today's procedures 
thereby severely limiting the operational benefit from NextGen and 
making it difficult for operators to justify the significant investment 
in aircraft equipment that NextGen will require.
    The REDAC as well as the RTCA Task Force 5 have noted this concern. 
The FAA has responded by initiating a lean process analysis of their 
current operational approval and certification processes for Instrument 
Flight Procedures (IFP). The NavLean report was issued last week and is 
a good first step in addressing these issues, however, even if fully 
implemented, it will only solve part of the problem.
    Research is needed in fundamental and applied areas to support the 
implementation of NextGen enabled capabilities. Fundamental research in 
procedure development, such as human-automation roles or the change in 
the roles between pilots and controllers, will guide effective 
procedure design. Also, more research is needed to support procedure 
development and testing in ways that supports future certification and 
environmental approval. The REDAC has noted some good work in this 
area, specifically in operational concept validation and modeling, but 
it is a small fraction of the research portfolio and only covers a 
limited set of the proposed NextGen operational changes. In addition, 
the REDAC notes the need for research in safety analysis, transition 
processes, and innovative approaches to environmental impact 
assessment.
    Finally, as noted above, the complexity and obscurity of the 
NextGen plans make it difficult to identify the critical research and 
development issues that will impede timely implementation of NextGen.

        3.  How would you assess the role and effectiveness of the JPDO 
        as the FAA's long-range planning office? How engaged are the 
        JPDO's partner agencies?

    The JPDO has not been effective as a long-range planning office for 
the FAA.
    In its early stages the JPDO played an important and effective role 
in identifying the need for NAS modernization, coordinating input from 
the community and its partner agencies resulting in the initial NextGen 
Integrated Plan, as well as the Operational Concepts and Operational 
Improvements which have come to define NextGen. After this initial 
surge the JPDO lost its focus and did not effectively engage the 
partner agencies, in particular the operational elements of the FAA who 
would be responsible for implementing NextGen.
    The NextGen plan stagnated with the JPDO unable to add substantive 
detail (e.g. the definition of a 4D Trajectory), to adapt the plan to 
emerging requirements (e.g. rising fuel costs or increasing 
environmental concerns), or to clearly define research needs at a 
specific level. Instead of focusing on long-range planning, much of the 
JPDO activity over the past few years was devoted to developing and 
managing a complex accounting system to track responsibility for 
integrated work plan elements. There are a few areas where strong JPDO 
working groups have made substantial progress notably in ATC-Weather 
Integration and Avionics.
    The engagement of the partner agencies has varied. Most of the 
partners, with the possible exception of the DOD, were heavily engaged 
with the initial JPDO efforts, with the DOT, FAA, NASA and Department 
of Commerce strongly involved in defining the initial NextGen Concept 
of Operations. The engagement of many of the agencies has waned over 
time although there is some recent evidence of improved collaboration 
under the leadership of the new JPDO Director. For example, the DOD has 
recently increased its engagement with the JPDO in the areas of Net-
Centric operations and integration of UAS in the NAS.

                   Biography for R. John Hansman, Jr.

    R. John Hansman is a Professor of Aeronautics & Astronautics MIT, 
where he is the Director of the MIT International Center for Air 
Transportation. He conducts research in the application of information 
technology in operational aerospace systems. Dr. Hansman holds six 
patents and has authored over 250 technical publications. He has over 
5300 hours of pilot in-command time in airplanes, helicopters and 
sailplanes including meteorological, production and engineering flight 
test experience. Professor Hansman chairs the US Federal Aviation 
Administration Research & Development Advisory Committee (REDAC) and is 
a member of the NASA Advisory Committee for Aeronautics as well as 
other national and international advisory committees. He is a Fellow of 
the AIAA and has received numerous awards including the AIAA Dryden 
Lectureship in Aeronautics Research, the ATCA Kriske Air Traffic Award, 
a Laurel from Aviation Week & Space Technology, and the FAA Excellence 
in Aviation Award.

    Chairman Palazzo. Thank you. I now recognize our final 
witness, Mr. Peter Bunce, President and CEO, General Aviation 
Manufacturers' Association.

 STATEMENT OF MR. PETER BUNCE, PRESIDENT AND CEO, THE GENERAL 
               AVIATION MANUFACTURERS ASSOCIATION

    Mr. Bunce. Chairman Palazzo, Congresswoman Fudge, Chairman 
Hall, and other distinguished Members of the Subcommittee, 
thanks for the opportunity to come talk to you today. I am an 
active jet and piston pilot, flying in the system every day, so 
everything that my government colleagues talked about today 
about NextGen is very sacred to me. I want to talk about a part 
of the research and development budget that is particularly 
important to a segment of the industry that I represent.
    GAMA, General Aviation Manufacturers Association, 
represents 70 of the world's leading producers of manufactured 
aircraft engines, avionics, and as we move to NextGen we are 
moving much of the system from a ground-based system up to 
avionics that are installed in the air so that we can better 
handle traffic as my colleagues have mentioned.
    So I have responsibility for everything from Boeing 
business jets down to aircraft like small Cessnas and Pipers, 
and that part of the industry, the piston part of the industry, 
is in a tough shape right now. Economically we have lost a lot 
of jobs, over 20,000 since the economic downturn happened, and 
about 45 percent of the product that we were producing back in 
2008 is gone.
    But with all that said, our companies are heavily invested 
in R&D and looking for, as the economic conditions start to 
pick up, an ability to go and produce even more fuel-efficient 
products.
    But on the piston end we are being squeezed between the 
Environmental Protection Agency on one side, and the FAA on the 
other, and that is in the area of leaded avgas. Now, piston 
aircraft operate on a fuel that was developed primarily during 
World War II, and all our engines were developed to be able to 
use the lead content which is in that fuel. They are designed 
to very close tolerances, and when you start to take the lead 
out, you get what is called detonation. You might recall when 
we switched to unleaded fuel in a lot of our cars, we got 
knocking, but a car, one, you can pull over to the side of the 
road, and, two, it has got a very robust engine block. Aircraft 
engines don't work like that. If you have detonation cylinders 
blow off, and people get hurt.
    So we have the EPA on one side saying you have to get the 
lead out of the fuel. We have the FAA regulator on the other 
side saying that the only way we can get product to market, the 
only way we can change the fuel, is it has to go through the 
FAA. They have to certify the new fuel. I am talking low dollar 
amount. It is about $2 million for each year of this 
reauthorization bill that we are talking about. There is a tech 
center up in Atlantic City where we provide some of the engines 
for them to be able to research the new fuels that we develop, 
and we fix the engines when they break. We have to have this 
because it is the only way we can convert to an unleaded fuel. 
We can't just use auto gas. Seventy percent of our aircraft out 
there could not use auto gas. You would have the same problems. 
You would have engines falling apart.
    The only way we can get to a new fuel, which our different 
companies and our industry is developing, is to have that 
capability up in Atlantic City. So, Mr. Rohrabacher talked 
about what my number one priority, small dollars but it is 
truly my number one priority because of the squeeze that we 
have--that we feel right now in our ability to convert the 
industry.
    There are other things for general aviation that become 
very important, and my colleagues have talked about NextGen 
which is extremely important to us. Being able to leverage our 
universities that are out there, there is an acronym called 
CGAR that basically is our Centers of Excellence--it is called 
the Centers for General Aviation Research, and we have that at 
Embry-Riddle University, Florida A&M, University of North 
Dakota, University of Alaska, and a couple other great, great 
institutions out there that have great aviation programs. We 
leverage these smart people that really understand software, 
and they are able to go and try to figure out how we are going 
to take the satellite-based system that we are going to, and 
integrate it with the avionics to be able to have more and more 
capability delivered out there so that we can go and address 
these congestion issues that, again, my colleagues have 
addressed.
    Also important to us in the R&D program is the CLEEN 
Initiative. The Continuous Low Energy Emissions and Noise 
Initiative that basically is our ability to make engines and 
airframes and also the materials that we use on aircraft, to 
make them lighter and be able to leverage all of that 
technology to be able to go and reduce our fuel burn. Because 
when we reduce our fuel burn, we go and cut emissions, but we 
also have the capability to cut noise, and noise as we all know 
is an important issue, much more important in Europe but very 
important here in the states.
    So all of these initiatives play into NextGen so we can do 
things on the aircraft manufacturing side, but we also can do 
the way we operate aircraft on the operational side to be able 
to go ahead and reduce emissions out there. So we think that 
the program that we are able to leverage with the universities 
is very important to us, the CLEEN Initiative, and of course, 
what we are doing in NextGen as well.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Bunce follows:]

                  Prepared Statement of Peter J. Bunce

    Chairman Palazzo, Ranking Member Costello, my name is Pete Bunce 
and I am the President and CEO of the General Aviation Manufacturers 
Association (GAMA). GAMA's sixty-eight member companies are the world's 
leading manufacturers of general aviation airplanes, engines, avionics, 
and components. Our member companies also operate aircraft fleets, 
airport fixed-based operations, pilot training and maintenance 
facilities worldwide. On behalf of our members, I appreciate you 
convening this important hearing and providing me with the opportunity 
to testify before the Subcommittee about the Federal Aviation 
Administration (FAA) reauthorization bill and its research title.

Overview of General Aviation

    General aviation is an essential part of our transportation system 
that is especially critical for individuals and businesses that need to 
travel and move goods quickly and efficiently in today's just-in-time 
market. General aviation is also an important contributor to the U.S. 
economy, supporting over 1.2 million jobs, providing $150 billion \1\ 
in economic activity and, in 2009, generating nearly $5 billion \2\ in 
exports of domestically manufactured airplanes. We are one of the few 
remaining manufacturing industries that still provide a significant 
trade surplus for the United States.
---------------------------------------------------------------------------
    \1\ General Aviation Contribution to the US Economy, Merge Global 
2006.
    \2\ 2009 General Aviation Statistical Databook and Industry 
Outlook, GAMA 2010.
---------------------------------------------------------------------------
    Our industry, like others, is struggling due to the recession. Due 
to the economic downturn, our member companies have seen more than 
20,000 layoffs over the last two years. Our deliveries have declined 
significantly--by 45% between 2008 and 2009 and almost 15% between the 
first three quarters of 2010 as compared to the first three quarters of 
2009.
    Despite these tremendous economic challenges, our member companies 
have responded by continuing to innovate and invest in new products to 
take advantage of market opportunities as the recession ends. We 
believe the market is stabilizing as we see an increase in orders in 
some segments of our industry. We also believe that this Subcommittee 
has a key role to play in helping our industry take full advantage of 
their investments and innovations.

Importance of FAA's R&D program

    Research and development at the FAA is conducted within two 
separate programs: the research, engineering and development program 
(RE&D), and the facilities and equipment (F&E) program. My testimony 
will focus on the FAA's RE&D program, but I will reference other issues 
as well which are relevant to your oversight responsibilities.
    The FAA focuses its research activities on aviation safety, air 
traffic control modernization, and the environment to advance agency 
policies, guide future technologies, and understand safety issues 
facing the aviation system. The FAA's research program has become more 
important recently as the National Aeronautics and Space 
Administration's (NASA) aeronautics budget has been cut dramatically 
over the past ten years. As a result, some policymakers have debated 
shifting all federal aeronautics research to the FAA.
    GAMA opposes this idea because the two agencies have quite 
different capabilities, missions, and goals. Moreover, during debate on 
its FAA reauthorization bill earlier this month, the Senate voted 
overwhelmingly against commissioning a study to determine the 
feasibility of transferring NASA's aeronautics program to the FAA. 
However, with respect to air traffic control modernization and other 
areas, it is very important that the two agencies coordinate their 
research programs and work closely together.

FAA Research Centers

    As the committee knows, the FAA conducts much of its research at 
the William J. Hughes Technical Center (Tech Center) in Atlantic City, 
New Jersey and the Civil Aero Medical Institute in Oklahoma City, 
Oklahoma. Both facilities bring unique capabilities to support the 
FAA's mission, and are globally recognized as world class research 
centers for aviation safety, technology and environment.
    An issue of great importance to the general aviation industry and 
the U.S economy is the FAA's evaluation and safety certification of 
alternative fuels which is primarily done at the Tech Center. GAMA and 
all other key industry stakeholders are currently involved in a joint 
public-private initiative to develop an unleaded aviation gasoline for 
piston engine aircraft and renewable fuels for turbine engine aircraft.

Alternative Unleaded Avgas Research

    One of the most important and critical FAA research activities for 
general aviation is to identify the information necessary to develop, 
approve and deploy an unleaded aviation gasoline (avgas) to replace the 
current 100 low-lead avgas (100LL). Environmental actions by the 
Environmental Protection Agency (EPA) and global economic factors 
threaten the continued availability of leaded avgas. However, lead is 
the only known additive for avgas which can protect high performance 
piston engines from detonation, sometimes referred to as ``knock,'' 
which completely destroys an engine.
    The FAA plays a critical role in industry initiatives to develop 
alternative fuels as only the FAA can determine the performance and 
airworthiness standards for the safety certification of new fuels. The 
FAA is partnering with our industry as we begin the long, complex 
effort to develop and approve an unleaded avgas and transition the 
existing U.S. fleet of nearly 190,000 piston engine aircraft. The 
Subcommittee's leadership will be absolutely essential this year and in 
the future to make certain that this transition is done in a way that 
ensures aviation safety is maintained, is technically and economically 
viable, and has the least impact on the existing fleet of GA aircraft 
and operators.
    We respectfully request that the Subcommittee include two key 
provisions in the FAA reauthorization bill with respect to avgas. The 
first is to authorize $2 million annually over four years in the FAA's 
research and development budget for Alternative Fuels for General 
Aviation. The FAA requested this funding level in the FY2011 budget and 
we expect the same request level for FY2012. This research program will 
help develop FAA performance and certification methodologies necessary 
for qualification and certification of alternative fuels.\3\
---------------------------------------------------------------------------
    \3\ NextGen Alternative Fuels for General Aviation A11.m Research 
Plan FY 2011-2015. FAA Aviation Fuel and Engine Test Facility (AFETF), 
William J. Hughes Technical Center AJP-6352. September 30, 2010.
---------------------------------------------------------------------------
    The testing that will be performed at the FAA's Tech Center in New 
Jersey will include different unleaded avgas formulations being 
developed by industry as well as possible piston engine modifications 
to ensure that they can be used safely in aircraft. In addition, this 
FAA activity is needed to ensure technical and safety cooperation with 
EPA as it pursues regulatory actions under the Clean Air Act to address 
lead emissions from general aviation. Support for this research will be 
an absolutely critical part of the process to identify and transition 
to a replacement unleaded avgas with the least impact on the existing 
piston-engine aircraft fleet.
    Secondly, we hope the Subcommittee will include the provisions of a 
bill (H.R. 549) introduced by Chairman Sam Graves of the Small Business 
Committee and Rep. John Barrow which will create a public-private 
partnership to collect data; identify criteria for a viable avgas; 
develop fuel emissions and airworthiness standards; and certify the 
modifications made to the general aviation piston fleet. This 
partnership will use the research data from the Tech Center to support 
the development of standards, guidance and processes necessary for 
safety certification and an efficient transition. In a move consistent 
with this bill, the FAA recently chartered an Unleaded Avgas Transition 
Aviation Rulemaking Committee (UAT-ARC) comprised of the key industry 
and government stakeholders to identify issues relating to the 
transition to an unleaded avgas and to recommend the tasks necessary to 
investigate and resolve them.
    An alternative unleaded avgas will require FAA approvals for tens 
of thousands of aircraft and certification of any engine modifications 
necessary to ensure that existing high-performance aircraft will be 
able to safely operate. This will require FAA policies and procedures 
to be in place as well as engineering resources available at aircraft 
certification offices in order to address the significant technical 
complexity and potential safety implications of transitioning the 
existing fleet of piston aircraft to an unleaded aviation gasoline.
    Our entire industry stands ready to work with you on this important 
initiative. We have formed a General Aviation Avgas Coalition comprised 
of general aviation manufacturers, operators, airport distributors and 
fuel producer industry groups to ensure the long-term viability of 
general aviation. GAMA companies have heavily invested in fuels 
research and engine development activities and participate actively in 
FAA research and Tech Center activities including the provision of 
engineering expertise, testing capabilities, and the provision of 
engine hardware and airworthiness maintenance support for the Tech 
Center test facility.
    Your Subcommittee's support is needed for FAA and industry to 
continue all the necessary unleaded avgas activities. It is our hope 
that a required or necessary transition to an unleaded avgas can be 
done in a way that effectively balances environmental improvements with 
aviation safety, technical feasibility and economic impact related to 
issues surrounding the production, distribution and cost of fuel.

CLEEN

    A number of GAMA member companies also participate in the FAA's 
public-partnership research program known as CLEEN, or Continuous Lower 
Energy, Emissions and Noise. The manufacturers engaged in CLEEN match 
or exceed the government funding under CLEEN, thus leveraging the 
public contribution. CLEEN is working on concrete solutions to increase 
the environmental efficiency of aircraft through research into 
promising new engine technologies, airframe and materials research, and 
alternative fuels. CLEEN technologies in some cases can be retrofitted 
to the existing fleet of aircraft thereby accelerating benefits to the 
public. Through collaboration with other research agencies and 
initiatives such as the Commercial Aviation Alternative Fuels 
Initiative or CAAFI, CLEEN is a key element of our industry's 
aggressive efforts to mature and demonstrate the benefits of ``drop-
in'' alternative fuels for aviation.

Important Role of Centers of Excellence

    The FAA has several Centers of Excellence (COE) that were 
established by Congress to leverage academia in support of the FAA's 
research priorities. GAMA works closely with the Center for General 
Aviation Research (CGAR), which is a consortium of leading aviation 
universities and flight schools including Embry-Riddle, Florida A&M, 
the University of North Dakota, the University of Alaska, and Wichita 
State University.
    The CGAR consortium is celebrating its ten-year anniversary this 
year of supporting the FAA's research mission. Its successes include:

        -  The development, evaluation and establishment of training 
        standards and testing standards for ``glass cockpit'' avionics 
        in light general aviation.

        -  Use of Automatic Dependent Surveillance Broadcast (ADS-B) 
        technology to track training flights.

        -  Evaluation of the use of data recorders in general aviation 
        flight operations at flight schools such as Embry-Riddle.

        -  The development of Safety Management System concepts for 
        general aviation and how they fit within current regulations.

        -  Accident trend analysis for general aviation operations that 
        is helping to guide the FAA's general aviation safety program, 
        the General Aviation Joint Safety Committee (GAJSC).

    One hundred and ninety-two graduate and undergraduate students have 
directly participated in these and other research projects sponsored by 
the FAA and CGAR. GAMA believes strongly in this type of foundational 
research and, more importantly, this research has a clear link to 
introducing new technologies or policies that have direct benefit to 
improving safety or capacity in our industry.
    The FAA reauthorization bill that passed the House in the last 
Congress included language to change the cost sharing criteria for FAA 
research projects. The bill capped the federal share at 75 percent for 
COE programs and, if justified, allowed for a 90 percent federal share 
in some cases. The feedback that GAMA has received from the CGAR 
program is that this new structure would further expand the ability of 
the program to support FAA's research mission through a shared cost 
structure. GAMA supports this change because of its ability to 
strengthen public-private research projects and encourages its 
inclusion in the new FAA bill.

NextGen Research

    Air traffic control modernization, or NextGen, will transform the 
National Airspace System (NAS) by using modern technologies to make air 
travel safer and expand capacity. We believe that the current 
impediment to accelerating NextGen is not a lack of technology but the 
inability to develop processes and procedures that will support the 
technology. To do this, FAA must leverage its research resources 
through both the RE&D budget and the F&E account. During the past two 
years, with direction from Congress, the FAA has undertaken specific 
initiatives to support the deployment NextGen. I would like to 
highlight two of them.
    In late 2008, the FAA announced a $9.3 million research award to 
develop and conduct flight demonstrations for an ADS-B ``In'' 
application called Enhanced Traffic Situation Awareness on the Surface 
with Indications and Alerts (or ``SURF-IA''). The SURF-IA application 
is a priority of the FAA as it would address safety enhancements 
recommended by the National Transportation Safety Board (NTSB). This 
research and evaluation was carried out successfully and identified 
specific technical areas that require additional attention from the 
FAA. The FAA shared the results of these projects with the ADS-B In 
Aviation Rulemaking Committee (ARC) which in turn endorsed a strategy 
to resolve any issues with this application so that it can be deployed. 
We believe this is an example of the FAA effectively leveraging timely 
research for needed NextGen deployments. We encourage more targeted 
NextGen research of this type in the future.
    Another ADS-B In application that will enhance safety in general 
aviation is called ``Traffic Situational Awareness with Alerts (TSAA) 
and would provide an evolved traffic collision avoidance system for 
light general aviation. As the Subcommittee may know, the FAA has 
struggled to identify benefits for general aviation from ADS-B and 
funding to develop this application is welcomed by GAMA. The contract 
has been awarded to MIT and the research plan is designed to develop 
ADS-B technical standards over the next three years. We encourage more 
targeted NextGen research to be undertaken in a manner similar to these 
two projects.
    Finally, we believe that NextGen research should benefit all 
segments of the aviation system. Although much work has been done to 
support key NextGen technologies like ADS-B, data communications, and 
System Wide Information Management, not enough work has been done to 
evaluate human factors issues relative to the deployment of these 
technologies, especially for general aviation operations. We believe it 
is important for the FAA to continue to engage with our community 
through forums such as the Research, Engineering and Development 
Advisory Committee to help guide its future research activities for 
NextGen. We especially want to make sure that issues within general 
aviation, like single pilot operations, are not overlooked when 
technologies such as data communications are developed toward 
deployment.

The Role of the Joint Planning Development Office (JPDO) in Guiding 
                    Research

    The JPDO was established by Congress in the Vision 100-Century of 
Aviation Revitalization Act of 2003. Its role is to coordinate 
activities between the various federal agencies that have a stake in 
NextGen including NASA and the Department of Defense. In addition, the 
JPDO also plays a role in ensuring that research essential to the 
deployment of NextGen is completed.
    GAMA believes that the JPDO must do three key things to be 
successful in achieving its research goals:

        -  Better integrate and coordinate with the FAA's NextGen 
        office

        -  Develop both short and long term plans that complement the 
        FAA's plans for NextGen so that they are seamless and unified

        -  Step up coordination between stakeholder agencies to ensure 
        research goals are met

    Since there are several different NextGen research and advisory 
committees, we urge this Subcommittee to evaluate the management of all 
these different institutional arrangements to ensure they are not 
duplicating efforts or a failing to establish clear areas of 
responsibilities.

Software Research

    Lastly, we have frequently voiced concern about the FAA's ability 
to develop and certify policy for software. We have championed this 
area over the past decade and within the research area we endorsed 
recommendations last spring for the software and digital systems 
program.
    GAMA has engaged the FAA over the past decade about the importance 
of building internal technical expertise on the staff level as well as 
to conduct targeted research in the area of software and digital 
systems. As the subcommittee knows, the NextGen program makes onboard 
avionics part of the ATC infrastructure as opposed to today's ground 
based radars and other equipment.
    As this ATC evolution begun, industry raised concerns over the 
FAA's internal capability to support this technology development 
through policy. Specifically, we believe that software and digital 
systems research and development should be given additional emphasis by 
the FAA including adequate staffing and funding. Industry has also 
called for the FAA to develop a comprehensive software and digital 
systems research plan that integrates with future policy and rulemaking 
needs.
    The FAA took some steps during 2010 to develop a research plan, but 
concerns remain about the level of resources. GAMA is encouraged that 
the FAA is listening to industry about this important area of NextGen 
and wants to ensure that appropriate levels of funding are provided to 
maintain internal expertise and advance research in the area of 
software and digital systems.

Conclusion

    Mr. Chairman, the FAA's research and development program is a 
critical part of the agency's mission and it's important that Congress 
continue to provide it with the resources it needs to meet the 
challenges I outlined in my testimony. GAMA stands ready to work with 
you and the other members of this Subcommittee to advance NextGen, 
support the transition to an unleaded avgas, and meet critical 
environmental goals. Thank you for allowing me to testify.

                      Biography for Peter J. Bunce

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Palazzo. I thank the panel for their testimony. 
Reminding Members that committee rules limit questioning to 
five minutes. The Chair will at this point open the round of 
questions. The Chair recognizes himself for five minutes.
    Dr. Hansman and Mr. Scovel, given the research and 
development projects and activities being undertaken by FAA, 
how would you characterize the level of resources being 
provided by the agency. Are resources commensurate with the R&D 
projects, goals, and schedules?
    Dr. Hansman. Over the past years I would say the resources 
have been good and have been commensurate with the general 
need. With the ramp up to NextGen in some sense it was hard to 
figure out what needed to be done, and there was a little bit 
of scrambling, but I say the first order the resources have 
been appropriate.
    Mr. Scovel. Mr. Chairman, I would concur. We think that 
funding over the past number of years targeted towards NextGen 
has generally been adequate. We have noted, as I stated in my 
opening statement, execution or implementation problems on 
FAA's part carrying out the programs that have been approved 
and some of which have been mandated by Congress. We see room 
for improvement in the multi-agency efforts, specifically with 
regard to weather and the Department of Commerce, DOD and DHS 
on surveillance, Department of Defense with unmanned aircraft 
systems, and finally NASA perhaps on human factors.
    FAA and its agency partners can do a much better job in 
those areas.
    Chairman Palazzo. Mrs. Cox, FAA's budget will come under 
intense scrutiny now and for the foreseeable future. If 
research and development funding were reduced, where do you 
believe the cuts would be taken, and how would FAA manage its 
R&D portfolio?
    Ms. Cox. Sir, our National Aviation Research Plan has long-
reaching effects into the implementation of NextGen for the 
future. As such, it is an extremely important investment that 
not only advances innovative ideas, but it helps us to make the 
better decisions for where we need to be going forward. So in 
the long run an investment in research, engineering, and 
development can lower the cost of more mature programs down the 
road.
    The RE&D program is a rather small part of the NextGen 
portfolio that falls under my overall purview, although it has 
been rather healthier in the last few years than it has been in 
the past.
    So we have intricate plans developed for moving forward. 
Dr. Hansman has made a reference to those. We need to take a 
look at the impact of our investments, use those plans to see 
what the long-term impact would be.
    The question about what would you cut versus what you keep, 
it is not that simple because of the interdependencies across 
these programs. So any decisions about funding need to take 
into account those long-term interdependencies.
    Chairman Palazzo. Mr. Bunce, once a new additive is 
approved, what is the scope of work involved to certify the use 
of new avgas formulation into the existing general aviation 
fleet? Will it be as simple as certifying each type of power 
plant, or will certification involve approving the fuels used 
in every model of airplane in the fleet today? Also, how likely 
is it that engines and fuel systems may have to be modified to 
accept a new fuel?
    Mr. Bunce. Mr. Chairman, we are hopeful that the fuel that 
we are developing right now is a fuel that all of these engines 
can use. However, each one of those different models does have 
to be certified. So, heretofore, what the FAA did was basically 
we had the set fuel, and they certified engines to be able to 
operate on it. Now we are changing that whole paradigm, and the 
FAA hasn't done that before. They have got to certify the fuel 
to fit into these 200,000 plus airplanes that are sitting out 
there to be able to go ahead and use it.
    So it is a huge project because there are so many different 
engines that are on those aircraft, and each one of those has a 
substantial investment. To replace an engine right now is 
about, for a small piston, it is in excess of $300,000, and a 
lot of those airplanes just aren't worth that kind of money.
    So we have to be able to go and certify each one of those 
engines, and we have an investment of over 5,000 general 
aviation airports around this country that are public-use 
airports. The commercial airlines use about 500 of them, so 
everything that we provide, from getting people airlifted to 
medical centers, to angel flight, to organ transfer, and just 
the commerce that is created from small and mid-sized 
communities out there. Then, of course, not to mention all 
agricultural business or the fact that Alaska just survives on 
general aviation. There is no way that Alaska can function 
without piston aircraft being able to deliver supplies because 
there is no other way to get there, particularly in the winter.
    So we have got to get this right, and it is a huge, huge 
problem.
    Chairman Palazzo. Thank you. I now recognize Ms. Fudge.
    Ms. Fudge. Thank you, Mr. Chairman, and thank all of you 
for your testimony today.
    Ms. Cox, GAO, GAMA, and DOT Inspector General have all 
identified the need for NextGen performance metrics that hold 
FAA accountable and give Congress and the industry the ability 
to measure progress.
    What is the status of FAA's efforts to develop these 
metrics, and secondly, do any of the other panel members wish 
to comment after Ms. Cox?
    Ms. Cox. Thank you. We have metrics in place to track our 
programmatic milestones and are doing that in great detail. The 
more difficult measure is how well are we doing overall with 
our NextGen investments.
    We have a group within the FAA that is focusing on 
developing those metrics in support of our future flight plan 
strategic goals, but it is not just the performance of the FAA 
that we have to measure. We have to measure the performance of 
our stakeholders, the operators in the system.
    So FAA has tasked the RTCA NextGen Advisory Committee to 
work with us in developing metrics not only for the FAA but for 
the operators to measure how NextGen is benefiting their 
performance.
    Mr. Bunce. Congresswoman Fudge, I just would like to 
comment. We think metrics becomes very important, and I think 
Mr. Scovel pointed out that we have saying that the FAA has 
used out there like, best equipped, best served. So if our 
operators go and equip with certain technologies, we have to 
get a return on that investment, and the things that we would 
like to see from industry being able to measure is if we go and 
do new approaches out there, and we are--and we go and equip 
and have these new approach designs out there, okay, how are we 
going to start to use them, and when we start to use them we 
need to start measuring how many people want to go ahead and 
use these styles of approaches where we can pull the power back 
at altitude, descend on down on approach, and not burn the fuel 
that we burn on the way we do approaches today.
    Now, there are a lot of elements to that. We have asked the 
T&I Committee to help us to go and work with the NEPA process, 
working with the Environmental Protection Agency to streamline 
the way we design approaches. Right now we build approaches and 
then they just overlay old existing type of approaches. We 
don't have to design them that way anymore. We can design very 
curvilinear type approaches that brings it very short and 
allows us to save a lot of gas coming down from altitude. That 
reduces emissions, and it also reduces noise.
    So if we can put some rigor into what the FAA means by best 
equipped, best served, and get the FAA to sponsor getting 
pilots and controllers together, to say how best can we crack 
this nut to be able to go and make sure we make maximum 
efficient use of the system, I think we can go a long way.
    Ms. Fudge. Thank you. Let me just follow up, Ms. Cox. When 
do you believe that you will provide the metrics to us?
    Ms. Cox. The committees are working on deliverables in the 
September, 2011, timeframe. So I think that in the very short 
term we will have some matrix available to follow. Meanwhile, 
the FAA is also introducing new capabilities in the system to 
respond to a previous taskforce recommendations.
    To Mr. Bunce's point, we are looking to provide benefits to 
operators who are already equipped, today. With that in mind we 
are going out and looking at metroplex areas where we could 
introduce these kinds of fuel-saving capabilities that he has 
alluded to. And, our first study teams have completed their 
assessment of the Washington DC metro area and the north Texas 
metro areas and have come up with some specific recommendations 
that will benefit operators there.
    And, we are moving on to address 21 total metroplex areas.
    Ms. Fudge. Thank you very much. Mr. Scovel, you state that 
although ERAM passed testing at FAA's Technical Center and 
achieved government acceptance testing, initial operating sites 
in Salt Lake City and Seattle revealed significant software-
related problems and that has pushed schedules well beyond 
original completion dates.
    Can you clarify the meaning of those test results, and what 
does this variation say about the robustness of FAA software 
testing?
    Mr. Scovel. Thank you, Ms. Fudge. If you had asked me about 
ERAM a year and a half or two years ago, I would have told you 
that we had great confidence in the program at that time. It 
appeared that the requirements for the contract were stable, 
that the program management was consistent and capable, and 
timelines for costs and for performance appeared to be track.
    Things appeared to unravel, however, about the time that 
the product was presented to the FAA Tech Center in New Jersey 
for testing and government acceptance. Frankly, it is quite 
disturbing. We have been asked, my office has been asked by the 
House Appropriations Committee to do an in-depth study of the 
ERAM Program, and this is an area that we are going to have to 
dive into.
    It appears that an incomplete version of the product was 
presented to the Tech Center initially. It was lacking some of 
the key software codes. That portion being specifically that 
would enable key interface between the test sites in Salt Lake 
and Seattle and other air traffic facilities. The Tech Center 
never had an opportunity to test that. It appears also, and 
this has been noted by MITRE, that the Tech Center didn't have 
the capability to do all of the testing that would have been 
desired, and FAA correctly points out that in any event, 
testing at the Tech Center might well have been imperfect since 
you can't plug a product like this into the NAS and have it 
direct live traffic. It had to go out to the test centers at 
Salt Lake and Seattle. Once that happened, that is where some 
of the key defects became apparent; interface issues, radar 
processing issues, erroneous flight data tagged to aircraft, 
and handoff problems between controllers specifically.
    The problems became so acute that the system had to be 
taken offline. Those centers had to resort to the Legacy Host 
System in order to direct high-altitude, long-range traffic, 
and now we find ourselves in a position where FAA itself says 
that ERAM delivery will be delayed by about four years and cost 
an extra $330 million. MITRE, on the other hand, says a more 
accurate number might be to 2015, or even 2016, and perhaps 
$500 million.
    So a lot is at stake in delivering this. ERAM is a key 
enabling platform for a number of critical programs that are 
truly NextGen-related as Ms. Cox has noted. FAA will get ERAM 
right. It will take a lot more time and a lot more money, but 
in the meantime it does raise questions for us about the 
adequacy of the Tech Center's programs and ability to conduct 
key testing like this.
    And also, frankly, with the contract negotiation and 
management point. If problems with testing at the Tech Center 
were known or should have been known, why were those not taken 
into account in the contract process so that the government 
alone would not have borne the total risk? It could have been 
spread between government and contractor perhaps. We will look 
at that and report to the Department and to the Congress.
    Ms. Fudge. Thank you so much. I yield back.
    Chairman Palazzo. I now recognize Mr. Sensenbrenner for 
questions.
    Mr. Sensenbrenner. Thank you very much. My question is 
basically on what is being done to plug the holes in the air 
traffic control system. Let me say, at the end of June last 
year I was on a United Airlines commercial flight that was 
going into Washington National Airport, and because there was a 
line of thunderstorms between Dulles and the National Airport, 
my plane was taken off the regular approach pattern into 
National.
    Shortly after that, the collision avoidance system went off 
twice on the plane that I was on. The plane made some very 
rapid and very sharp maneuvers in order to avoid a collision, 
and I asked the FAA to come and show me the tapes, and I came 
within 100 feet of being wiped out together with about 110 
other passengers. The Washington Post has run a whole series of 
stories as a result of this relative to near collisions. Some 
people call them near misses. I think it is better to call them 
near collisions in the skies above DCA. With the number of 
people that go in and out of DCA, Members of Congress and 
government officials, I think it is important to plug the holes 
lest there be, you know, a huge tragedy.
    What apparently came out of this investigation was that 
there was a manual handoff or what was called a splat splat 
between the National Airport controllers and the Dulles Airport 
controllers. The National Airport controller handed control of 
the plane off, he thought, to the Dulles Airport controller, 
except the Dulles Airport controller never picked it up.
    This was something that was done manually. Apparently there 
was no training on the part of the Dulles Airport controller 
who was relatively new in the FAA, and since he didn't know he 
was in charge of dealing with both the general aviation plane 
that took off from Dulles as well as my United Airlines 
commercial plane, we came very close, like 400 feet, to having 
a tragedy.
    What is being done to prevent this from happening again?
    Ms. Cox. A large part of the focus of the NextGen Program 
is on better managing how we control traffic in very congested 
airspace, such as the situation you described. Providing better 
tools to the controller so that they can be alerted to 
potential conflicts, such as the one that you experienced, and 
help them to deal with it in a more automated fashion.
    As you point out, very much of the system today is a manual 
system. A lot of tracking is done by the human, and we are 
looking at ways to automate some of that. From Dr. Hansman's 
presentation you also saw the impact that weather can have to 
further exacerbate the situation. NextGen also invests in 
better tools for predicting the weather so that further out in 
the system we can place that traffic more efficiently and 
effectively for getting it into the airport of destination.
    So these are the kinds of investments that we are looking 
at.
    Mr. Sensenbrenner. Okay, but I just heard that NextGen is 
going to require a lot of money, which we don't have at the 
present time, and take quite a bit of time like maybe five 
years plus, to become effective. I just don't want to see a 
tragedy occur, whether it is in the congested airspace over the 
DC area or someplace else.
    Is there anything that is being done on a more immediate 
basis to prevent one controller handing control of a plane off 
to another controller, and the other controller doesn't pick it 
up?
    Ms. Cox. You are correct. Some of these investments in 
automation systems do require long-term investments and longer-
term deliveries. Some of the things that we are looking at are 
better control on the surface and integrated arrivals and 
departures that manage those departures better, and some of 
that capability is being delivered today.
    So deconflicting traffic is one, for a departing aircraft, 
for example, we are investing in capabilities that will address 
that, and I will say that----
    Mr. Sensenbrenner. And when will it be addressed?
    Ms. Cox. The----
    Mr. Sensenbrenner. Do we need to have a mid-air collision 
before it becomes an urgency on the part of the FAA?
    Ms. Cox. I think that the safety of the system is always an 
urgency with the FAA and has our attention, and we believe that 
we are one of the safest systems in the world.
    Mr. Sensenbrenner. Well, you know, so do I, but the 
situation that the commercial airliner that I was on was 
serious enough to warrant the NTSB's investigating this, and it 
always takes awhile for them to figure out what went wrong, but 
I would like to know that when the NTSB reaches its conclusion 
that there would be immediate implementation of whatever 
recommendations they make, and I haven't heard anything in this 
hearing to put my mind at ease.
    Ms. Cox. I can't speak to the outcome of the investigation. 
I am certain that it will be taken very seriously.
    Another investment that NextGen is making today, is in our 
ability to take data such as you described and others that are 
less serious than the incident that you described, track that 
data, and develop capabilities to assess it so that we can 
avoid those incidents in the future. Not wait until the 
incident happens and then do the investigation. The ASIAS or 
the Aviation Safety Information Assessment Sharing Program that 
NextGen funds will help us make this safer.
    Mr. Sensenbrenner. Thank you.
    Chairman Palazzo. Dr. Hansman, did you have anything you 
would like to add?
    Dr. Hansman. Well, I was just going to point out that while 
this was a mistake in the system, I think it also illustrates 
that we actually do have redundancies in the system that 
provide protection. So there was a secondary collision alerting 
system that the crew had to prevent a mishap.
    Some of the things that are happening----
    Mr. Sensenbrenner. If you will yield, the secondary system 
that was on board the Airbus 319 that United was flying went 
off twice.
    Dr. Hansman. Sure, and so it worked.
    Mr. Sensenbrenner. Yeah, it worked, and I am here today 
because it worked.
    Dr. Hansman. Yeah, and I think one of the things that is 
happening in NextGen is we are adding additional levels of 
redundancy in the system, so some of the things that are 
happening, for example, with ADS-B, is the GA airplane in the 
future, which wasn't equipped, I presume, will probably be 
equipped. That will also have collision alerting system. So 
there are things that are happening.
    Chairman Palazzo. Thank you. I now recognize Ms. Sewell for 
questions.
    Ms. Sewell. Thank you, Mr. Chairman. I would also like to 
thank the panelists for your testimony.
    My question actually has to do with the Joint Planning and 
Development Office. Ms. Cox, the OIG says that there is 
confusion within FAA and the industry about the JPDO's role in 
advancing NextGen. While the OIG acknowledges that FAA 
recognizes the need to better define JPDO's mission, no 
definitive action has been taken to determine what role, if 
any, JPDO will play in the critical NextGen implementation.
    My question is three-fold. Does FAA agree with OIG's 
assessment? Secondly, what specifically do you plan to do to 
address this concern?
    Ms. Cox. I believe that the role of the JPDO is somewhat 
better understood. They have a role with keeping an eye on 
longer-term research that will provide the vision that the FAA 
can aim its nearer-term activities toward achieving. So those 
long-term goals are theirs.
    The other mission of the JPDO is the one that Mr. Scovel 
alluded to, which is the interagency contributions to the Next 
Generation air transportation problem, and I think we do 
concede that interagency cooperation is a very challenging 
undertaking. We have made some advances with the help of the 
Joint Planning and Development Office in leveraging some 
research going on in other agencies, with NASA in particular, 
upon whom we depend so much for a lot of the more basic and 
fundamental research that contributes to our more applied 
efforts.
    We have been working very closely under the auspices of the 
JPDO with Research Transition Teams. We are focusing in four 
key areas that will help us improve NextGen. The JPDO this past 
fall called together a workshop of the Air Force Research 
Laboratory, NASA, and the FAA to look at long-term planning for 
unmanned aerial systems operating in the National Airspace 
System. So we are hoping to leverage those capabilities.
    The Department of Defense named the Air Force as their 
chief agency with responsibility for NextGen integration. The 
Air Force has assigned a liaison, who is resident with us at 
FAA headquarters to assist us in this effort, and we are 
working very closely with the National Weather Service in 
planning some of our joint weather plans for the future.
    Ms. Sewell. Inspector General Scovel, do you agree with her 
assessment?
    Mr. Scovel. Thank you, Ms. Sewell. I would like to note, 
and it is more than just a historical footnote, but I think 
much of the confusion and disappointment with our industry 
stakeholders in the JPDO's role----
    Ms. Sewell. Uh-huh.
    Mr. Scovel. --stems from the decision in 2008, to place the 
JPDO within the Air Traffic Organization, in effect to bury it. 
The Air Traffic Organization, of course, is rightly concerned 
with safe operations of the NAS 24/7. The JPDO is designed to 
look long term in executing NextGen. By placing it under the 
ATO, the rationale was to make sure that long-term plans will 
align with the operators who have to carry them out, but in 
effect, the JPDO languished--it drifted for a couple of years.
    It has now been removed from the ATO. It is now placed 
directly under the Deputy Administrator----
    Ms. Sewell. Uh-huh.
    Mr. Scovel. --and Mr. Huerta has taken a very keen interest 
in making sure that the JPDO steps forward to take its rightful 
place not only for long-range NextGen planning but also we hope 
and industry hopes along some of the lines that I outlined in 
my statement for simulation and modeling perhaps, technology 
transfer most certainly in the multi-agency role, prototype 
development and policy formulation as well.
    Ms. Sewell. Dr. Hansman, you stated that the JPDO has not 
been effective as a long-term, long-range planning office, and 
after playing an important and significant role in identifying 
the needs for NAS modernization, the JPDO has lost its focus, 
is what you said.
    What needs to be done to restore the JPDO's effectiveness 
in your opinion?
    Dr. Hansman. So, I think there are a couple of challenges. 
One is the challenge of basically having too many bosses, so 
you have an organization that when it began was fairly bold in 
its vision but then became timid because it was afraid of 
offending, while making some of the hard decisions. So I think 
that is one thing.
    I think they also need to be looking for not so much at 
micro-designing what the system will be in 2015----
    Ms. Sewell. Uh-huh.
    Dr. Hansman. --but really tracking what the future demands 
and challenges on the system would be. So, for example, it is 
disappointing that the JPDO is not more focused on 
environmental concerns and efficiency issues, which have 
emerged after the initial definition of the plan, but they were 
very slow to respond.
    So I would much rather see them really taking a longer-term 
view of what the requirements are as opposed to the detailed 
design of exactly how a procedure is going to work in 2015.
    Ms. Sewell. Ms. Cox, do you agree with his critique?
    Ms. Cox. I think that the suggestions are quite good in 
terms of looking to the longer term and focusing there. So in 
general, yes, I do.
    Ms. Sewell. I yield the rest of my time.
    Chairman Palazzo. Thank you. I now recognize Mr. 
Rohrabacher for questions.
    Mr. Rohrabacher. Thank you very much, and Chairman Palazzo, 
I want to congratulate you for--I take it this is the first 
hearing of your subcommittee, and you have chosen for the first 
hearing of your subcommittee a non-space-related issue, and 
sometimes the criticism, and I think justified criticism, of 
this subcommittee is that it spends all of its time on space 
when there are general aviation issues and aviation issues that 
are vitally important to the security and the prosperity of our 
country. So I appreciate that.
    We all know that Gabby Giffords isn't with us today, and we 
are sad about that, and we certainly wish her well and hope she 
gets back very soon.
    So I would like to get back to priorities and things, and 
the gentleman just mentioned too many bosses, and one thing 
that seems to be coming out of this hearing at me is that we 
have this bureaucratic system that is all around us, and 
looking at components of this NextGen, it seems to me, that 
maybe that we have in every one of those departments or 
components that we are trying to place this part of the effort 
here or over here, what is the ratio? Maybe I should ask that 
of our Inspector General here. What is the ratio there of 
bosses versus engineers and scientists and people doing the 
software and people who are doing the grunt work that needs to 
be done? What is that? Do we have a system that has too many 
bosses?
    Mr. Scovel. Thank you, Mr. Rohrabacher. I can't peg a 
number to answer your question. We haven't done work in that 
specific area. I can tell you, however, that what we have, as 
we did in 2007, recommended to FAA that it undertake an 
analysis of its acquisition work for us, specifically those 
skills that would be needed for NextGen, FAA concurred in that 
recommendation, contracted with National Academy of Public 
Administration to do that, NAPA presented its report in 
September, 2008, and identified, in fact, 26 key competencies 
that were needed. The grunts, if you will, not just the top 
leadership level.
    FAA has moved, we think, quite slowly in filling the 
trenches with those grunts in key areas like----
    Mr. Rohrabacher. And could that be because the people 
making the decision to hire the people that are actually doing 
the real work know that the budget is coming out of the money 
that would go to pay to them? I mean, this sounds like to me we 
got an awful lot of people managing some engineers who are 
actually doing all the work.
    Mr. Scovel. I don't know what the rationale, sir, is. I can 
only report on the results, which are that key skills like 
program management, software development, systems engineering, 
and integration specifically, for instance, having to do with 
an emphasis on human factors, which is what NAPA identified, 
some of those areas are lacking. My office is currently 
undergoing or undertaking another review of FAA's acquisition 
workforce, and we are going to try to peg those specific 
deficiencies with greater specificity.
    Mr. Rohrabacher. Well, when I asked the original question, 
thank you, Mr. Chairman, for granting me that one minute with 
unanimous consent, and I said what are your highest priorities, 
would I take it then that your highest priority is not hiring 
more managers for this system but instead hiring more people 
who are actually getting the software done and the engineering 
done on the technology? Would I suggest that that might your 
top priority and your lowest priority right there?
    Mr. Scovel. It is certainly key, and in our statement we 
identify that as one of the five action items that we have 
recommended to FAA in this area.
    Mr. Rohrabacher. Well, we are still, remember, we are going 
on here with a $40 billion program, we are being told, that it 
went from--and the date for the actual put it in place went 
from 2025, to 2035, now. How is that affecting the bottom line? 
Is that--maybe I should ask Ms. Cox about that.
    Ms. Cox. The original 2025 date was for the visionary 
system that was described by the Joint Planning and Development 
Office back in 2004----
    Mr. Rohrabacher. Uh-huh.
    Ms. Cox. --when the authorization set that office up. The 
FAA has done some careful assessments, looked at research 
requirements, and come up with what we believe is an achievable 
plan for what will in essence transform the way the system 
operates in a more mid-term timeframe, and our plans focus 
toward those deliverables, which, granted, are not as visionary 
perhaps as the original 2025.
    The JPDO, meanwhile, continues to focus on the long-term 
vision and look at how we can realistically connect that 
research to deliver a capability in the future, because we 
can't just stop in 2025----
    Mr. Rohrabacher. Right.
    Ms. Cox. --or 2018 or----
    Mr. Rohrabacher. Sure.
    Ms. Cox. We must continue to look forward, and that is our 
goal, and that's why the investment in the research and 
engineering is so very important as well.
    Mr. Rohrabacher. And when is that date when this new system 
is going to be evident, although it is not complete?
    Ms. Cox. I think there is evidence today that we are 
introducing new capabilities. For the general aviation 
community in particular, access to airports that they never had 
access to before is available through space-based nav aids that 
provide access to operators who are equipped, and they are 
equipping at remarkable rates.
    Mr. Rohrabacher. One last question, Mr. Chairman. The FAA 
budget, is it $346 million a year research budget, is that for 
overall FAA, or is that a NextGen?
    Ms. Cox. The President's '12, budget request is a $380 
million range for our National Aviation Research Plan. The 
total NextGen request is in the 1.2 billion range.
    Mr. Rohrabacher. Okay. Well, thank you very much, Mr. 
Chairman.
    Chairman Palazzo. All right. With the committee's 
indulgence I will conclude the hearing with one last question.
    Mr. Scovel, Mr. Hansman, whoever wants to respond to this 
is fine, but I think it is pretty much your statement, so might 
want to back up. Might not be everybody's. Your statement 
suggested a high level of participating agencies are not 
realigning their R&D budgets and programs to aggressively 
support NextGen. With exception of FAA and DOT, is NextGen's 
implementation imperiled because of indifference or diminishing 
commitment of some or all the partnering agencies?
    Mr. Scovel. Thank you, Mr. Chairman. I think imperiled is 
probably too strong a word. Is there potential for delay? Most 
certainly. Is there potential for missed opportunities? 
Absolutely.
    I would characterize FAA's success in the multi-agency 
effort as frankly being patchy at this point. They have had 
some successes working with NOAA and Defense along weather 
lines, but at the same time Commerce has made clear that they 
are going to work on the 4-D weather cube to suit Commerce's 
needs until FAA is able to better articulate and define what 
FAA's weather needs are for NextGen. It has been the same with 
DOD when it comes to unmanned aircraft systems and surveillance 
needs. Human factors are also another area that needs greater 
attention.
    So I think FAA is going to get all of this right, but it is 
frustrating for us and frankly for some of the other agency 
partners, DOD in particular, when it comes to unmanned aircraft 
systems, to see FAA's seeming inability in a prompt manner in 
the views of the other agencies to define what the needs are so 
that the agencies can work in a way that they think will suit 
not only their own needs but FAA's.
    Mr. Rohrabacher. Mr. Chairman, would you indulge me one 
more question?
    Chairman Palazzo. Let Dr. Hansman answer and then 
absolutely I will recognize you for one additional question.
    Dr. Hansman. I was just going to mention that there has 
actually been good collaboration with NASA on NextGen, so I 
think that has been a good interface. I agree that there is a 
tension between the DOD and the FAA particularly in the area of 
UAV operations.
    There is also, I think, a concern on the part of the DOD 
that a lot of the NextGen plans presume airborne equipage, and 
it is very difficult for the DOD to be able to afford to 
equipage for the number of airplanes that they have.
    Mr. Bunce. Mr. Chairman, I would just add an industry 
perspective for you on this. One of the things that we have 
been very disappointed about is the involvement of the 
Department of Homeland Security in the process as well. When 
you look at what we are able to do with the NextGen System and 
when we deploy ADS-B and we have this capability out there, the 
original vision was we could get rid of some radars, and radars 
are expensive down on the ground. Basically, these ADS-B boxes 
that we are putting all over the country are about the size of 
a refrigerator, much smaller, much easier to maintain, and we 
are moving a lot of the infrastructure up to the air.
    As you go you would think that as we deploy this system 
that we would be able to get rid of a lot of the old technology 
that we have been relying on, but there is a concern out there 
about people that don't want to cooperate, what is called non-
cooperative targets, and want to turn off their systems. How 
are we going to monitor those?
    So who is going to be responsible for those radars that are 
no longer needed by the FAA that have to be either picked up by 
Homeland Security or picked up by DOD, and that is where I 
think industry's frustration is as we look at the interagency 
process and trying to see, okay, who is all sitting at the 
table and when they go and the JPDO talks about this long-range 
vision, when the FAA comes and says we want to do that, deploy 
this NextGen System, where can we reap some savings and then 
who do those responsibilities now transfer to?
    And that is why we have to get everybody at the table, and 
the only people that are going to be able to drive that is 
going to be at the Administration level where they can say to 
the secretaries, you got to get people to sit down at the table 
and hash this all out and make the JPDO process work.
    Ms. Cox. Mr. Chairman, can I make a small clarification in 
terms of the FAA's planning for the radar systems? With the 
advent of ADS-B, Automatic Dependent Surveillance-Broadcast, as 
our primary surveillance system, the FAA has judged that it can 
remove about 50 percent of our secondary radars that track 
traffic in the immediate terminal areas for us, and we can do 
that by re-siting some of the existing radars and get the same 
coverage that we have today.
    The longer-range radars that track the uncooperative 
targets are today under the management of the DOD and the DHS 
but maintained by FAA, and there is no plan to remove those 
radars.
    Chairman Palazzo. Okay. Thank you, all. The Chair 
recognizes Mr. Rohrabacher for an additional question.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I would 
just like to ask Mr. Scovel, I am sure he can't answer this 
question now but maybe you could get back to me with an 
assessment from your organization as to what the actual cost is 
here between managers and administrators for the NextGeneration 
Project versus the actual online personnel who are the 
scientists and the engineers.
    I think it would be good for us to know what are the 
administrative costs and, you know, at some point you can hire 
enough administrators that they have to find reasons to argue 
with one another, and they actually get in the way of people 
who are actually developing software, et cetera, and I would 
just like to get a better understanding of this particular 
program and where the costs are in terms of personnel, and that 
would be, I think, helpful for us to do our job here in making 
sure that we make sure the money is being spent efficiently.
    Thank you very much, and could you get back to me with some 
assessment of that?
    Mr. Scovel. I would be happy to, sir. You are right. We 
don't currently have that information, but we would be glad to 
take a crack at it for you.
    Mr. Rohrabacher. Thank you.
    Chairman Palazzo. I thank the witnesses for their valuable 
testimony and the Members for their questions.
    The Members of the Subcommittee may have additional 
questions for the witnesses, and we will ask you to respond to 
those in writing. The record will remain open for two weeks for 
additional comments and statements from Members.
    The witnesses are excused, and this hearing is adjourned.
    [Whereupon, at 11:15 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Ms. Victoria Cox, Senior Vice President, NextGen and 
        Operations Planning, Air Traffic Organization, Federal Aviation 
        Administration

Questions submitted by Chairman Steven M. Palazzo

Q1.  The witness from the General Aviation Manufacturers Association 
testified that certifying an unleaded gasoline for piston aircraft 
would be a significant challenge. Assuming a new unleaded aviation gas 
formulation is developed, what process would FAA undertake to approve 
the use of this fuel in the legacy piston fleet? Would FAA require each 
and every legacy piston engine type and model to be recertified, and 
how would the certification be conducted? Would legacy fuel tanks and 
aircraft fuel delivery systems also be subject to certification?

A1. The FAA and its industry partners in the Unleaded Avgas Transition 
Aviation Rulemaking Committee (UAT ARC) recognize the challenge of 
certifying an unleaded aviation gasoline for the entire piston-engine 
powered aircraft fleet. The UAT ARC established a focus area dedicated 
to investigating this issue and to providing recommendations on how to 
facilitate the process. The scope of the resulting certification 
process will depend on the degree of similarity of the new fuel with 
the existing, lead-containing avgas. The difference will determine 
whether or not a fleet-wide approach can be accomplished, or whether 
the certification will need to address groups of similar type engines 
and aircraft. Regardless, the FAA will strive to streamline or 
facilitate the certification process. Legacy fuel tanks, aircraft fuel 
delivery systems, and other ground-based infrastructure systems and 
components are not under the FAA's regulatory authority and will not be 
included in our resulting certification policy.

Q2.  The Inspector General testified that there is ``confusion'' within 
FAA and industry about JPDO's role. The Chairman of the REDAC also 
offered the view that JPDO's role is ``not effective.'' What is FAA's 
response to these assessments? Is FAA planning to take additional 
measures to clarify JPDO's roles and responsibilities?

A2. The Vision 100 - Century of Aviation Reauthorization Act (Public 
Law 108-176) established the Joint Planning and Development Office 
(JPDO) in the Federal Aviation Administration (FAA) ``to manage work 
related to the Next Generation Air Transportation System (NextGen).'' 
The integrated plan is designed to ensure that NextGen meets safety, 
security, mobility, efficiency and capacity needs for 2025. The JPDO 
responsibilities include coordinating goals, priorities and research; 
facilitating technology transfer; and creating multi-agency research 
and development roadmaps.
    Now that the FAA is implementing NextGen, it is important that the 
JPDO considers the implementation path. The JPDO will continue long-
range research planning, while synchronizing that planning with near-
term deployments and managing the policy challenges posed by 
implementation. The JPDO Director serves as an advisor to the Secretary 
of Transportation and as his liaison to the Senior Policy Committee, 
consistent with Executive Order 13479.
    The JPDO leads the interagency coordination of NextGen policy 
issues. The Office monitors the progress and pace of implementation, 
keeps senior leadership apprised of the progress, and if necessary, 
raises concerns to the appropriate officials. The Director provides 
dedicated senior leadership to ensure that NextGen is coordinated among 
all government partner agencies, and with private industry. The Office 
continues its work with planning and modeling, keeping in mind the 
Federal government's planned funding levels.

Q3.  With respect to Unmanned Aircraft Systems research and 
development, what are FAA's near- and mid-term plans and goals? What 
research activities is FAA undertaking?

A3. The FAA has identified critical areas where Unmanned Aircraft 
Systems (UAS) research is needed to ensure the safe integration of UAS 
in the National Airspace System (NAS) through the development of 
policy, regulation, and a basis for certification:

        <bullet>  UAS performance thresholds for safe operations in the 
        NAS and in the Next Generation Air Transportation System 
        (NextGen).

        <bullet>  Certification requirements for UAS pilots and crews.

        <bullet>  Design standards for UAS control stations.

        <bullet>  UAS data link performance requirements.

        <bullet>  UAS sense and avoid requirements.

    The goal of this work is to reduce the mitigations required to 
integrate UAS into the NAS, and eventually reach the point where UAS 
have unfettered access to the NAS.
    The FAA is undertaking research that will provide data to support 
the safe integration of UAS in the NAS, including:

        <bullet>  Demonstrations of UAS performance and impacts on the 
        NAS, as well as the integration of NextGen concepts and 
        technologies through collaborative efforts with industry and 
        other Government agencies.

        <bullet>  Studies of key UAS human factors issues and safety 
        analyses through partnerships with academia.

        <bullet>  UAS standards development work, specifically in the 
        areas of control and communications, and sense and avoid using 
        modeling and simulation, and

        <bullet>  Additional collaboration on research initiatives to 
        address joint UAS challenges through interagency agreements.

    It is essential these efforts continue to evolve as we move toward 
the far-term, to ensure that we overcome all of the key challenges 
critical to safe UAS integration into the NextGen NAS.
    In addition, FAA has joined with the Joint Planning and Development 
Office (JPDO), NASA and DOD to examine the current interagency research 
activities, plans and challenges for integrating Unmanned Aircraft 
Systems (UAS) into a future NextGen airspace. Three technical teams 
were formed during a workshop co-sponsored by the JPDO and the Air 
Force Research Laboratory in October 2011. The Air Vehicles team 
focused on the on-board technology needed to enable semi-autonomous UAS 
to operate safely in controlled airspace and populated areas. The 
essential focus of the Sense and Avoid/Communications team was the 
requirement to construct a framework that can bridge the current 
practice of see and avoid to NextGen-appropriate paradigms that reflect 
and leverage the operational differences between a manned and a 
remotely operated aircraft. The Human Factors and Ground Control 
Station team concentrated on developing pilot qualifications, levels of 
automation, communication latency, contingency management, ground 
control station information display, navigation system compatibility, 
and the fact that the pilot is spatially separated from the UAS. The 
workshop outcomes will serve as a starting point for developing a 
strategic UAS research, development and demonstration roadmap.

Questions submitted by Representative Jerry F. Costello

Q1.  The Transportation Inspector General's statement indicated that 
FAA had yet to make critical design decisions or address research and 
development gaps with its partner agencies that will affect NextGen's 
cost, schedule, and performance. Two of the four unresolved issues he 
stated were integrating weather information into advanced automated 
systems and determining joint surveillance requirements to track 
aircraft.

a.  What is the crux of the technical disagreements between FAA and the 
Department of Commerce over how to synchronize national applications of 
observed, forecast, and disseminated weather data? How do you plan to 
resolve these disagreements and what is your timetable for reaching a 
resolution?

A1a. Although synchronization of programmatic efforts between partner 
agencies is a coordination challenge, there are no significant 
technical disagreements between FAA and the Department of Commerce 
(DOC) with respect to national applications of observed, forecast and 
disseminated weather. Integration of weather information with FAA air 
traffic management (ATM) automation has been a topic of considerable 
review and discussion during the past year. Those discussions have 
resulted in a shared understanding of an ATM-Weather integration 
context that affirms DOC's role as the primary provider of 4-
dimensional atmospheric state information and the FAA's primary role in 
translating that information into relevant ATM constraint and impact 
information.
    The FAA recognizes DOC's lead role in developing the NextGen 4D 
Weather Data Cube which is intended to serve as the source of weather 
information from which a common operating weather picture will be 
derived by airspace system users. In support of that role, the FAA has 
collaborated with DOC for the past two years to develop and demonstrate 
the application of standards that will enable effective exchange of 
weather information between the NextGen 4D Weather Data Cube and FAA 
applications. Those standards are essential components of the 
infrastructure investment programs now under consideration at both DOC 
and FAA. Although a final investment decision on the FAA's NextGen 
Network Enabled Weather (NNEW) program will not be made before the end 
of CY2012, close coordination between the agencies will remain during 
detailed investment analyses to ensure that interoperability is not 
affected as detailed technical implementation choices are made.
    Note also, that the JPDO's NextGen Executive Weather Panel (NEWP) 
has been and remains in place as an executive oversight and strategic 
support body for cross-agency issue coordination and resolution.

b.  Why have FAA and the Departments of Defense and Homeland Security 
not established joint surveillance requirements, which are needed to 
track aircraft and achieve the integrated surveillance and the 
capabilities envisioned for NextGen?

A1b. In 2009, the NextGen Senior Policy Committee (SPC) directed their 
staffs to analyze existing and potential executive bodies to provide 
interagency governance of aviation surveillance activities and make a 
recommendation to the SPC as to which alternative should be 
implemented. The main barrier to establishing interagency joint 
surveillance requirements has been the lack of an institutional 
mechanism to oversee and coordinate surveillance capabilities across 
all departments and agencies. Such a governance mechanism must be 
trusted to allocate requirements and costs fairly among the Federal 
surveillance partners.
    In July 2010, the SPC endorsed the governance recommendation and 
the work plan for integration and alignment of surveillance 
capabilities and directed staff to proceed with the plan as outlined. 
The governance plan establishes an interagency executive-level council 
and a technical staff to perform the engineering and analysis needed to 
develop joint requirements and an acquisition strategy. It also 
provides a process for elevating decisions when necessary through the 
National Security Staff's interagency policy coordinating process.
    As governance is established, technical work is proceeding in 
several areas that will support joint requirements and a whole-of-
government solution, including additional refinement of a near-term 
concept of operations, validation of non-cooperative surveillance 
requirements, and documentation of planned capabilities and capability 
gaps.

Q2.  Unmanned aircraft systems, human factors, and weather are among 
some of the areas that the Transportation OIG and REDAC have identified 
as needing urgent attention, research, and planning at a cross-agency 
level. How is the JPDO responding to their recommendations?

A2. The JPDO, recognizing the importance of Unmanned Aircraft Systems 
(UAS) to both the public and private sectors, brought the need for 
interagency research and planning to the attention of the Senior Policy 
Committee in July 2010. Subsequently, the JPDO and the Air Force 
Research Laboratory (ARFL) co-sponsored a workshop to focus on critical 
and cross-cutting long-term research challenges associated with flying 
UAS in a future NextGen trajectory-based operations airspace. NASA, DOD 
and FAA participated in the workshop. Technical teams were formed to 
examine research relating to human factors, sense and avoid/
communications and air vehicles. These three teams continue to work to 
identify current activities for long-term integration of UAS into the 
national airspace system, map interagency research and develop 
opportunities for collaborative demonstrations. A top-level summary of 
the initial workshop is posted on http://www.jpdo.gov.
    The JPDO recommended to the JPDO Board, at its February 2011 
meeting, a plan to use the workshop outcomes as the basis for 
developing a UAS research, development and demonstration roadmap to 
identify the long-term research choices. The JPDO convened executive 
leadership from the agencies to set particular direction for roadmap 
development in March 2011. The next steps are to establish a work 
charter and to produce an initial roadmap.
    In February 2011, the JPDO released the ``NextGen Human Factors 
Research Coordination Plan.'' This plan, developed by the FAA and NASA 
in conjunction with the JPDO, formalizes the coordination process 
between these two agencies for human factors research. It also begins 
an annual coordination process to review planned research efforts, 
identify gaps, monitor and evaluate progress, and report results. The 
coordination process leverages GAO-recommended best practices to help 
enhance and sustain collaboration among Federal agencies.
    The JPDO's Weather Working Group has been working over the last 
several years to define concepts, develop architectural designs and 
demonstrate IT and net-centric capabilities for near-term 
infrastructure improvements for NextGen. Parallel to that effort is the 
needed improvements to the accuracy of digital weather information 
provided to the FAA to enable integration and with improved performance 
of air traffic management processes and systems. These improvements 
will require continuing research and development efforts from 
governmental, private sector, and academic institutions to realize 
NextGen requirements. Our Weather Working Group and continues the work 
to define overarching science and technological challenges and gaps 
that exist in R&D to meet those challenges. Initial improvements from 
R&D efforts include better turbulence and icing forecast predictions, 
as well as the demonstration of thunderstorm forecast improvements for 
air traffic management. We will continue to work with the NextGen 
partners in the working group to develop a plan to leverage research 
efforts currently in place, and identifying and incorporating new R&D 
required to meet NextGen goals for optimized air travel.

Q3.  The Transportation OIG says that FAA now plans to complete the En 
Route Automation Modernization also known as ERAM in 2014--a schedule 
slip of 4 years. However, the OIG also says that FAA and its contractor 
plan to add new capabilities at the same time it is attempting to 
resolve problems identified in earlier software versions-which could 
further schedule delays.

a.  Does it make sense to add new capabilities to an unstable system?

A3a. The FAA has made significant progress in the deployment of ERAM. 
The Salt Lake City (ZLC) and Seattle (ZSE) Key sites have been 
operating in an Operational Suitability Demonstration (OSD) phase since 
October 19, 2010 and November 13, 2010, respectively. The FAA is 
executing the plan agreed to with the Office of Management and Budget 
(OMB) to ensure we have repeatable processes with entrance and exit 
criteria prior to delivery of software releases to sites for 
operational use. Additionally, there is a measured benchmarking process 
used at the sites to ensure that the software builds are mature and the 
site is able to progress through a controlled process of initial, 
extended, and continuous operations. Given the improvements in strategy 
and processes, some software development of new capabilities in 
parallel with the waterfall rollout of ERAM is a manageable activity.
    For example, upgrading the D-side position is necessary to future 
NextGen applications including the en route data communication 
applications, advanced conflict probe functionalities including 
conflict resolution advisories and integration of weather onto the 
planning display. This also addresses the industry recommendations 
included in the Task Force 5 recommendations on future en route data 
communications.

b.  Is the contractor incurring any penalties for the delays?

A3b. To date, there have been no contractual penalties incurred. 
However, going forward, the FAA has strengthened the acceptance 
criteria in the contract for future ERAM software releases to help 
ensure higher quality software in the operational builds.

Q4.  A Continuing Resolution at FY08 budget levels, or lower, would 
translate into significant cuts for all agencies. How would FAA 
prioritize its research under those conditions?

A4. Conducting current research activities at the FY 2008 levels 
($147M) would present challenges. This would be approximately a 23% 
reduction from the FY 2011 request level. This reduction would require 
a reevaluation of all research activities and severely impact the 
ability of the FAA to meet goals stated in the past National Aviation 
Research Plans (NARP). This reduction would have significant impacts on 
all areas of FAA research. Since safety is our highest priority, the 
most substantial reductions will be in other areas, but there will be 
significant impacts to our safety research programs as well.
    A reprioritization of the research portfolio would be coordinated 
by the R&D Executive Board (REB), which is responsible for strategic 
planning and budget formulation for research in the FAA. The REB 
members represent the FAA lines of business (associate administrators) 
and assistant administrators who sponsor or manage funds for R&D 
programs. The REB would review all currently planned programs and 
reprioritize them taking into consideration the balance between current 
safety requirements and future NextGen requirements. The REB would also 
coordinate the reprioritization with the NextGen Integration and 
Implementation Office.

Q5.  The REDAC found that the aircraft icing program's very limited in-
house expertise requires FAA to rely heavily on partners and grantee/
contractors to manage their programs. As a result, the REDAC 
recommended that FAA review the current ``bench strength'' and take 
appropriate hiring action to assure continuity in technical strength 
well into the future. What is the FAA doing to address the REDAC's 
recommendation?

A5. The FAA recognizes the need for additional in-house expertise in 
atmospheric and aerodynamic science and engineering and has addressed 
it in the short term by developing research partnerships with NASA, the 
U.S. National Center for Atmospheric Research, National Research 
Council Canada, Environment Canada, other national research 
organizations and academic institutions. For the longer term, the FAA 
had planned to add to our technical staff, starting with a research 
meteorologist. Unfortunately, due to current budget constraints and the 
ceiling on federal positions in the RE&D appropriation, we will not be 
able to add staff in this area at this time. We will pursue our hiring 
plans if the situation changes. In the meantime, we will continue to 
work with the Aircraft Icing Chief Scientist and Technical Advisor 
(CSTA) and our research partners to ensure the needed technical 
strength in the aircraft icing research area.

                   Answers to Post-Hearing Questions
Responses by Hon. Calvin Scovel III, Inspector General, U.S. Department 
        of Transportation

Questions submitted by Chairman Steven M. Palazzo

Q1.  As a routine matter, to what degree does FAA build margin into 
their cost and schedule estimates for NextGen-related research projects 
and plans?

A1. FAA's initial NextGen plans were very ambitious and did not 
consider risk or build in sufficient margins to account for moving a 
complex, software intensive system from development into actual 
implementation. The Trade Space Analysis, led by the JPDO, examined 
FAA's vision for NextGen targeted for 2025 and showed that FAA did not 
sufficiently factor margins and risks into NextGen plans. This analysis 
showed that capabilities originally planned for 2025 will probably not 
be implemented until 2035 or beyond. Moreover, FAA's plans did not 
fully account for the costs and time for airspace users to equip with a 
wide range of NextGen avionics.

Q2.  Your testimony highlighted difficulties encountered with initial 
ERAM testing at Salt Lake City, estimating that total cost growth could 
be as much as $500 million (based on a MITRE study). Does this estimate 
reflect added cost to the ERAM program alone, or does it also include 
cost increases associated with the delays of other NextGen-related 
technologies that are dependent on ERAM?

A2. Answer: FAA's estimate that the current cost growth for ERAM will 
be $330 million--which could increase to $500 million--reflects the 
effort required to complete the program as originally planned. The 
delays associated with NextGen, and related efforts, such as data 
communications for controllers and pilots, are not included in the 
estimate and have yet to be determined.

Questions submitted by Representative Jerry F. Costello

Q1.  In your view, what are the impediments to FAA's implementation of 
your organization's recommendations and what should be done to address 
those impediments?

A1. FAA has concurred with most of our recommendations to reduce risk 
with developing and implementing the multibillion-dollar NextGen 
initiative. The problem, however, has been following through to 
complete actions needed to fully respond to and ultimately close our 
recommendations. We have found that impediments to FAA's response to 
our recommendations mirror those that FAA faces in advancing NextGen. 
These include overall complexity of the effort, lack of firm 
requirements, and a culture highly resistant to change that focuses on 
running the current system. For example, in responding to our 
recommendations for leveraging other Federal research and completing an 
integrated budget document, FAA officials also told us that a "not 
invented here attitude" is a factor in limiting their progress. We will 
continue to track FAA's progress with NextGen and how it implements our 
recommendations.

Q2.  How would you prioritize your organization's recommendations 
relative to NextGen? What would you recommend to FAA as the top 5 
priorities and would those priorities be the same if FAA's budget gets 
cut significantly?

A2. In our statement, we outlined areas where FAA needs to take actions 
to better manage its NextGen long-term efforts. The current budget 
environment underscores the urgent need for FAA to strengthen the 
multi-agency approach, better leverage Federal research, and prevent 
duplicative efforts. The following actions are needed regardless of the 
funding level Congress provides for FAA's long-term NextGen efforts:

        <bullet>  Establish research priorities and develop an 
        integrated NextGen budget document that better aligns with 
        partner agency resources: Without an integrated budget document 
        that identifies the NextGen funding and R&D priorities of all 
        the partner agencies, Congress will not be able to determine if 
        the right research is being conducted and if the Government is 
        making the best use of taxpayer dollars.

        <bullet>  Clarify the role of the JPDO: There is confusion 
        within FAA and the industry about JPDO's role in advancing 
        NextGen along the lines of development, simulation and 
        modeling, technical transfer and policy issues. FAA must 
        clarify JPDO's role so it can move forward and provide value to 
        NextGen efforts.

        <bullet>  Finalize performance goals and metrics for NextGen: 
        Although there are broad goals for what NextGen should 
        accomplish, there are no clear, specific goals for performance 
        capabilities or metrics for FAA and industry to measure 
        accomplishments.

        <bullet>  Leverage DOD research and development for NextGen: 
        Neither FAA nor the JPDO have fully assessed DOD's vast 
        research and development portfolio to determine if DOD's 
        completed work could be useful in meeting NextGen goals without 
        incurring cost, time, and risks to "re-develop" needed 
        capabilities.

        <bullet>  Secure necessary expertise to execute NextGen: A 
        recent National Academy of Public Administration study 
        identified weakness and gaps in the FAA workforce that, if left 
        uncorrected, could impede FAA's efforts to execute NextGen.

Q3.  How could FAA and JPDO better leverage DOD's R&D base in 
developing NextGen?

A3. As we noted in our statement, DOD contributes to NextGen as a 
member on various committees, boards, and work groups. DOD has also 
taken the lead in the area of net-centric operations and is working 
with FAA and JPDO on surveillance issues. However, neither FAA nor the 
JPDO have done a complete assessment of DOD's vast research and 
development portfolio. DOD's experience with enterprise architecture 
development, large-scale systems integration, and overall management of 
high-risk efforts could prove useful. Moreover, FAA could leverage DOD 
technology such as satellite-based Joint Precision Approach and Landing 
System to reduce risk with FAA's precision landing systems for NextGen. 
In response to our June 2010 recommendation, FAA agreed to develop a 
plan to review and identify DOD research and technologies that could be 
used for NextGen and establish mechanisms to transfer the information 
to FAA. According to JPDO officials, this effort should be completed 
this year.

Q4.  In your view, do NextGen implementation schedules reflect the time 
to complete necessary environmental R&D and policies? If not, how much 
additional time should be appropriately added?

A4. FAA's plans for NextGen in the near, mid-and long-term do not fully 
reflect the risks associated with resolving various environmental 
issues and policies. For example, FAA notes in its most recent NextGen 
Implementation Plan that environmental reviews could delay new routes 
that take advantage of precise navigation equipment on aircraft. 
Further, FAA's Trade Space Analysis underscored the need for greater 
attention to carbon emissions and noise generated by aircraft. We have 
not conducted a review of NextGen environmental issues and therefore 
are not in a position to comment on how much time should be added to 
NextGen program schedules to resolve them.

                   Answers to Post-Hearing Questions
Responses by Dr. R. John Hansman, Chair, FAA Research, Engineering, and 
        Development Advisory Committee, Professor of Aeronautics and 
        Astronautics, Director, MIT International Center for Aviation

Questions submitted by Chairman Steven M. Palazzo

Q1.  When talking about FAA's research portfolio, you stated that 
research is needed in fundamental and applied areas to support 
implementation of NextGen enabled activities, specifically mentioning 
research in procedure development, and development and testing to 
support future certification and environmental approval. You also 
suggested there was much more work still to be done. What other lines 
of research should FAA pursue in order to enable full operational 
benefits of NextGen?

A1. In order to achieve significant operational benefits from the 
NextGen investment it will be necessary to change the operational 
procedures to take advantage of the improved performance from the 
advanced NextGen Communication, Navigation and Surveillance 
infrastructure. If we only use these technologies to fly our current 
procedures and separation standards the operational benefit will be 
limited. Research is needed to support the definition of new high 
performance procedures and new ways of operating. The research should 
also provide data to support the safety analysis required for 
operational approval. It is extremely difficult to prove that a new 
NextGen procedure will not compromise the extraordinarily high level of 
safety slowing down NextGen implementation. Research in new approaches 
to safety analysis may provide approaches which will allow 
implementation of the high benefit NextGen procedures while assuring 
that the high level of safety of the system is maintained. A similar 
need for innovative research exists in the environmental domain.

Questions submitted by Representative Jerry F. Costello

Q1.  In your view, what are the impediments to FAA's implementation of 
R&D Advisory Committee (REDAC) Recommendations and what should be done 
to address those impediments?

A1. The FAA has responded to all REDAC recommendations and has 
developed a formal tracking process to monitor the response to REDAC 
recommendations. In some cases the FAA is limited in it's ability to 
implement recommendations due to resources, personnel, culture or other 
higher priority issues which slow the response. In some cases the FAA 
may disagree with the REDAC recommendations.


Q2.  How can the Congress assess whether initial NextGen building 
blocks are achieving intended delay reductions in the absence of 
clearly defined metrics to measure benefits.

A2. There is good tracking of delay data at the airport, facility and 
system level, which is reported by the FAA and the Bureau of 
Transportation Statistics so it is possible to track the overall delay 
trends. There are a number of factors which make it difficult to 
attribute delay reduction to specific NextGen building blocks. First, 
changes in traffic demand and weather conditions will change the 
baseline delay expectation and confound the delay data. Second, NextGen 
will require multiple ``building blocks'' as well as new procedures in 
order to achieve delay reduction. A single ``building block'' such as 
ADS-B, RNP or 3D trajectory management will have limited benefit on 
it's own without the other elements.


Q3.  You state that the REDAC is concerned that there does not appear 
to be a clear high level Research and Development plan for NextGen that 
articulates the critical NextGen needs and links them to the R&D 
portfolio. Why is this important and has the FAA responded to the 
REDAC's concerns? What should be the role of the JPDO in the 
development of the R&D plan?

A3. A high level Research and Development plan is necessary to define 
and prioritize research requirements as well as to provide the context 
for the different research elements and for the stakeholders to have a 
clear vision of the system under development. It is also useful in 
managing the risk in the development program and coordinating with the 
various stakeholders who contribute to or are investing in the NextGen 
system.
    The initial JPDO NextGen Integrated Plan followed by the Operation 
Concepts documents were good motivational documents which outlined the 
desired directions for NextGen but were too general to clearly define 
research requirements. Subsequently the JPDO defined a vast set of 
Operational Improvements which were uneven in detail are so numerous 
that it is difficult to identify clear priorities. The FAA's NextGen 
Implementation Plan is a reasonable high level document but it is 
limited to mid term implementation.
    Both the JPDO and the FAA have taken an Enterprise Architecture 
approach to define the details of the NextGen program. This approach, 
taken from DOD acquisition, is designed for managing complex 
acquisition programs. It is useful for managing the acquisition parts 
of NextGen but is extremely detailed and complex. Most who attempt to 
use the Enterprise Architecture to understand NextGen find it 
intractable and it would be extremely useful to have a higher level 
Research and Development plan which is consistent with and traceable to 
the lower level and more detailed Enterprise Architecture elements. In 
the initial development there was an intent to link the Enterprise 
Architecture to research requirements. The REDAC applauded this effort 
but has not been briefed on the results so it is unclear if this has 
been done.

                   Answers to Post-Hearing Questions
Responses by Mr. Peter Bunce, President and CEO, the General Aviation 
        Manufacturers Association

Questions submitted by Chairman Steven M. Palazzo

Q1.  Once an alternative aviation gasoline candidate has been 
developed, how long do you estimate it would take to get the fuel 
certified?

A1. There are two steps required to ``certify'' an alternative fuel. 
First, is an assessment and qualification of a potentially viable 
candidate through the establishment of an aviation fuel specification 
which is typically done at ASTM in coordination with FAA, 
manufacturers, and fuel producers. This step provides the definition 
and control necessary for use in aviation. This can be expected to take 
2-4 years depending on how different the fuel is.
    Second, FAA must certify or approve all existing engines and 
aircraft to allow them to operate using the new avgas fuel. Depending 
on how different the fuel is and whether any engine modifications are 
required, certification/approval of the existing fleet to support a 
complete transition could take several years. The automotive industry 
transition from leaded to an unleaded fuel took a decade to accomplish 
and industry did not have to wait for government certification.

Q2.  And in your view, what's the safest and most effective path for 
certifying legacy aircraft engines and fuel systems?

A2. First, we will need FAA research and development conducted, in 
partnership with industry, to develop the appropriate certification 
guidance, standards, processes and regulations necessary to certify/
approve the existing fleet of engines and aircraft to transition to an 
alternative unleaded avgas. Second, FAA will need to determine which of 
the existing fleet of engines/aircraft it can approve to transition 
seamlessly to operate on an unleaded avgas. Finally, FAA and industry 
must work in collaboration to identify, evaluate and certify the 
modifications necessary for the remaining part of the fleet that could 
not transition seamlessly to an unleaded avgas

Questions submitted by Representative Jerry F. Costello

Q1.  What is the nature of the testing that will be performed at the 
Tech Center with regards to alternative fuels?

A1. Testing will be focused on the assessment of fuels and on the 
certification approval standards for engines and aircraft.
    For fuels, the testing will support the development of assessment 
and qualification guidance, standards and processes appropriate for 
proposed alternative unleaded avgas candidate fuels. For example, the 
testing will evaluate the minimum fuel performance requirements 
necessary to ensure it is fit for aviation use including high/low 
temperature characteristics, anti-knock tests, and the development of a 
performance scale for unleaded fuels. The testing will also assess 
exhaust gas emissions to ensure there are no potential new issues/
concerns that would be unacceptable to FAA/EPA.
    For engines and aircraft, the testing will support the development 
of appropriate FAA certification guidance, standards, processes and 
regulations necessary to certify/approve the existing fleet of engines 
and aircraft to transition to an alternative unleaded avgas. These will 
include determining the tests or limits necessary for safety to address 
differences in fuel composition, properties and performance and 
determining which engines/aircraft can operate safely on the 
alternative unleaded avgas and which engines/aircraft may need 
modifications.
    Most of these testing requirements are included in the FAA's draft 
research plan and 5-year master schedule which was developed in support 
of the proposed FY11 R&D program on alternative fuels for general 
aviation requesting $2M per year 2011-2015 (http://www.crownci.com/
download/NAAFRP.pdf).

Q2.  How long do you think it will take before a new fuel is developed 
that is both economical and safe to use by the General Aviation 
Community?

A2. With the support necessary from FAA and EPA, GAMA believes an 
unleaded avgas can be developed by industry and independently assessed 
and qualified by ASTM and FAA within 2-5 years that is potentially 
viable from both a safety and cost per gallon perspective. The 
identification of a viable unleaded avgas by May 2013 is a key decision 
point in the FAA's draft alternative fuels for general aviation 
research plan.
    However, the total economic impact of an alternative fuel will 
require an appropriate transition period commensurate to the level of 
impact upon the existing fleet of aircraft (of up to 10-years) to 
ensure that current owner/operators of aircraft that may not be able to 
transition without some form of modification and re-certification can 
plan accordingly. This type of a transition period is consistent with 
the automotive industry shift from leaded to unleaded fuel.

Q3.  What do you see as the biggest remaining impediments?

A3. The biggest impediments include lack of appropriate coordination 
and support from government agencies particularly if EPA fails to 
coordinate their policy and regulatory activities with FAA and 
industry; lack of political support for the funding necessary to 
support this transition; the current economic climate that impacts the 
level of private sector resources and investments to address this 
problem; and claims of a ``quick-fix'' solution that distracts and 
diverts resources from FAA and industry efforts to take a deliberate, 
well-thought out approach to addressing this issue.

Q4.  Can you expand on your remarks regarding the need for NextGen 
research to benefit all segments of the aviation system? Would 
projected improvements for air carriers be similarly applicable to the 
General Aviation community? If not, what else needs to be done?

A4. General aviation is the most diverse segment of civil aviation. It 
is commonly accepted that the NextGen program was established to 
address air carrier delays and congestion, while building overall 
National Airspace System (NAS) capacity.
    The foundational technologies that drive the NextGen evolution for 
Communications, Navigation and Surveillance (CNS) are data link 
communications (C), performance based navigation (N), and Automatic 
Dependent Surveillance Broadcast (S) each of which are in various 
degrees of maturity, deployment, and benefit to different segments of 
aviation.
    In the case of general aviation, performance based navigation is 
providing real benefits to operators today through the deployment of 
the Wide Area Augmentation System (WAAS) capability in the NAS which 
enables enhanced navigation and approaches for general aviation. With 
respect to ADS-B, general aviation is recognized as incurring 
significant cost with limited benefits for ``Out'' [see quote in FAA 
rule at Federal Register Volume 75 at 30187 ``General Aviation: High 
Equipage Cost with Little Benefit''] and with respect to ``In'' only 
five of the seventeen applications in the FAA's work plan are believed 
to be relevant to light general aviation operators [see FAA 
Applications Integrated Work Plan (AIWP) Version 2, June 2010]. 
Finally, in the case of data link communications, light general 
aviation is likely to not deploy this technology, while high-end 
general and business aviation struggle to achieve a positive cost-
benefit ratio for those airspace areas where data link will be deployed 
in the near term such as in North Atlantic Oceanic operations. General 
aviation in many cases will be equipping for the principal reason of 
maintaining access to airspace and airports.
    Since the program for NextGen is built around air carrier 
operations, we similarly see the research prioritized toward air 
carrier operations and uses. While this is the correct prioritization, 
GAMA believes that all segments must be considered. Some targeted 
general aviation research is funded and underway in the ADS-B program 
to develop a more advanced collision avoidance system. GAMA, as well as 
one of our member companies, is currently involved in this research 
program and we applaud the FAA for guiding research funds toward the 
development of this application.
    However, more needs to be done. We would encourage the FAA to look 
further into human factors issues surrounding the deployment of data 
link for business aviation operators who often conduct single pilot 
operations. Similarly, the agency needs to look further into how to 
smartly enable the deployment all NextGen technologies into the NAS for 
small operators in a streamlined fashion that does not bury the 
operator (or the agency) under volumes of red tape with respect to 
approvals. Additionally, the FAA must look at tailoring requirements 
for equipage so that small aircraft (those certificated under Part 23) 
can cost-effectively deploy the equipment in an efficient manner while 
ensuring that safety is properly addressed. This does not mean that the 
same equipment requirements for avionics such as ADS-B must be applied 
to small airplanes, but we must through research look to innovative 
ways in which the requirements can be scaled.

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
